<html>
<title> - IMPROVING AND REFORMING OUR NATION'S SURFACE TRANSPORTATION PROGRAMS TO SUPPORT JOB CREATION AND THE ECONOMY</title>
<body><pre>[Senate Hearing 112-823]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-823

 
IMPROVING AND REFORMING OUR NATION'S SURFACE TRANSPORTATION PROGRAMS TO 
                  SUPPORT JOB CREATION AND THE ECONOMY

=======================================================================

                          JOINT FIELD HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                                AND THE

             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE
                 UNITED STATES HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 23, 2011

                               __________

                            Serial No. 112-9

                               __________

 Printed for the use of the Senate Committee on Environment and Public 
Works and the House of Representatives Committee on Transportation and 
                             Infrastructure


       Available via the World Wide Web: http://www.fdsys.gpo.gov

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
85-228                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2a4d5a456a495f595e424f465a0449454704">[email&#160;protected]</a>  


               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      ONE HUNDRED TWELFTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
FRANK R. LAUTENBERG, New Jersey      JOHN BARRASSO, Wyoming
BENJAMIN L. CARDIN, Maryland         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico                MIKE JOHANNS, Nebraska
JEFF MERKLEY, Oregon                 JOHN BOOZMAN, Arkansas
KIRSTEN GILLIBRAND, New York

       Bettina Poirier, Majority Staff Director and Chief Counsel
                 Ruth Van Mark, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                           FEBRUARY 23, 2011

Mica, Hon. John L., U.S. Representative from the State of Florida     1
Boxer, Hon. Barbara, U.S. Senator from the State of California...     2
Napolitano, Hon. Grace F., U.S. Representative from the State of 
  California.....................................................     5
Hunter, Hon. Duncan, U.S. Representative from the State of 
  California.....................................................     5
Brown, Hon. Corrine, U.S. Representative from the State of 
  Florida........................................................     6
Shuster, Hon. Bill, U.S. Representative from the Commonwealth of 
  Pennsylvania...................................................     7
Richardson, Hon. Laura, U.S. Representative from the State of 
  California.....................................................     8
Harman, Hon. Jane, U.S. Representative from the State of 
  California.....................................................     9
Chu, Hon. Judy, U.S. Representative from the State of California.    10
Waxman, Hon. Henry A., U.S. Representative from the State of 
  California, prepared statement.................................   113

                                WITNESSES

Knabe, Hon. Don, chairman, Los Angeles Metropolitan 
  Transportation Authority; and Los Angeles County Supervisor, 
  4th District, County of Los Angeles............................    13
    Prepared statement...........................................    16
Villaraigosa, Hon. Antonio R., mayor, City of Los Angeles........    20
    Prepared statement...........................................    23
Czyzyk, Joseph A., chair, Los Angeles Area Chamber of Commerce...    28
    Prepared statement...........................................    30
Hunter, Robbie, council representative, Los Angeles/Orange 
  Counties Building & Construction Trades Council................    32
    Prepared statement...........................................    34
McKim, Cindy, director, California Department of Transportation 
  (CALTRANS).....................................................    36
    Prepared statement...........................................    38
Phillips, Kathryn, director, California Transportation and Air 
  Initiative, Environmental Defense Fund.........................    43
    Prepared statement...........................................    46
Kempton, Will, CEO, Orange County Transportation Authority.......    55
    Prepared statement...........................................    57
    Summary of Goals and Projects, December 20, 2010.............    63
Heminger, Steve, executive director, Metropolitan Transportation 
  Commission.....................................................    67
    Prepared statement...........................................    69
    Report of the National Surface Transportation Policy and 
      Revenue Study Commission, January 2008.....................    74
Mayer, Anne, executive director, Riverside County Transportation 
  Commission.....................................................    82
    Prepared statement...........................................    84
    Brochure, The 91 Project.....................................    88
Statements:
    Brummett, Ronald E., executive director, Kern Council of 
      Governments................................................   115
    Pringle, Curt, chairman, California High-Speed Rail Authority   120
    Pulaski, Art, executive secretary-treasurer, California Labor 
      Federation.................................................   123
    Knabe, Don, chairman, Metropolitan Transportation Authority..   125
    Leslie, Mary, president, Los Angeles Business Council........   126
    Hale, Debra L., executive director, Transportation Agency for 
      Monterey County, CA; chair, American Public Works 
      Association (APWA).........................................   143
    Lowenthal, Bonnie, chair, Assembly Committee on 
      Transportation.............................................   150
    Rafter, Tracy, CEO, Rafter Group, Inc., Los Angeles County 
      Business Federation (BizFed)...............................   152
    Foster, David, executive director, BlueGreen Alliances.......   155
    Partners, BlueGreen Alliance.................................   156
    Mayer, Anne, executive director, Riverside County 
      Transportation Commission (RCTC), articles................157-160
    Krause, Daniel, executive director; Stern, Ryan, board 
      member; Gimbel, Michael, member, Californians for High-
      Speed Rail.................................................   161
    Ham, Robert E., director of Intergovernmental Relations, 
      County of Imperial, CA.....................................   164
    McKim, Cindy, director, Department of Transportation, State 
      of California.............................................165-175
    Burns, Michael T., general manager, Santa Clara Valley 
      Transportation Authority..................................176-189
    Dillard, Joyce...............................................   190
    Styers, Paul, Con-way Freight................................   193
    Phillips, Kathryn, director, CA Transportation and Air 
      Initiative, Environmental Defense Fund.....................   194
    Various transportation members and supporters, February 11, 
      2011......................................................198-203
    Okerblom, Eilene, Santa Maria, CA............................   204
    Tietz, Tom, executive director, California Nevada Cement 
      Association...............................................206-208
    Vandermost, Phil, vice president of Marketing & Government 
      Relations (on behalf of FP<SUP>2</SUP>, Inc.)..............   209
    Lodge, Steve Chavez, director of Public Affairs, Hill 
      International..............................................   213
    Garcia, Rodrigo, vice president, Associated Professionals and 
      Contractors (APAC); chairman of the board, Hispanic 
      Engineers Business Corporation (HEBC).....................214-216
    Hubsmith, Deborah A., director, Safe Routes to School 
      National Partnership.......................................   217
    Mejia, Genaro, PE, American Society of Civil Engineers (ASCE)   219
    Gosnell, Jim, executive director, West Coast Corridor 
      Coalition..................................................   221
    Fox, Andrew, P., mayor, City of Thousand Oaks, CA............   223
    Wang, Karin, vice president, Programs & Communications, Asian 
      Pacific American Legal Center; Porchas, Francisca, lead 
      organizer, Labor/Community Strategy Center and Bus Riders 
      Union; Walton, Gloria, executive director, Strategic 
      Concepts in Organizing & Policy Education (S.C.O.P.E.); 
      Henderson, Wade, president and CEO; and Blackwell, Angela 
      Glover, founder and CEO, PolicyLink........................   227
    O'Sullivan, Terence M., general president, Laborers 
      International Union of North America.......................   233
    Lantz, Alexis, planning and policy director, Los Angeles 
      County Bicycle Coalition...................................   237
    Natural Resources Defense Council............................   240
    Rothman, Roland (Rolly), Rothman Engineering, Inc., 
      Professional Engineers in California Government............   245
    Cohen, Laura, western regional director, Rails-to-Trails 
      Conservancy................................................   249
    Gallegos, Gary L., executive director, San Diego Association 
      of Governments (SANDAG)....................................   251
    Kemp, Jim, executive director, Santa Barbara County 
      Association of Governments (SBCAG).........................   260
    Diaz, Cesar, legislative director, State Building and 
      Construction Trades Council of California..................   262
    Greenwald, Peter, senior policy advisor, South Coast Air 
      Quality Management District................................   264
    Mesnikoff, Ann, director, Green Transportation Campaign, 
      Sierra Club................................................   268
    St. Amant, David, president and chief operating officer, 
      Econolite Group, Inc.......................................   272
    The Labor/Community Strategy Center and the Bus Riders Union.   275
    Giuliano, Genevieve, Ph.D., vice president, Research 
      Education and Training Reauthorization Coalition (RETRC)...   279
    Friedrich, Tami, board member, Citizens for Reliable and Safe 
      Highways (CRASH) and California volunteer coordinator, 
      Truck Safety Coalition.....................................   282
    Knatz, Geraldine, executive director, The Port of Los Angeles   286
    Lindsay, Betsy A., president/CEO, UltraSystems Environmental.   295
    Goldsmith, Russell, chairman, The Los Angeles Coalition......   298
    Spohn, Hon. Tim, city council member, City of Industry, 
      California, and chairman, board of directors, Alameda 
      Corridor-East Construction Authority.......................   301


IMPROVING AND REFORMING OUR NATION'S SURFACE TRANSPORTATION PROGRAMS TO 
                  SUPPORT JOB CREATION AND THE ECONOMY

                              ----------                              


                      WEDNESDAY, FEBRUARY 23, 2011

                                       U.S. Senate,
                 Committee on Environment and Public Works,

            U.S. House of Representatives,&I06Committee on 
                         Transportation and Infrastructure,
                                                   Los Angeles, CA.
    The committees met, pursuant to notice, at 8.35 a.m. at the 
Brentwood Theater, 11301 Wilshire Boulevard, Hon. John L. Mica 
(chairman of the House, Committee on Transporation and 
Infrastructure) and Hon. Barbara Boxer (chairman of the Senate, 
Committee on Environment and Public Works) presiding.
    Representatives present: Representatives Mica, Shuster, 
Brown, Napolitano, and Richardson.
    Other Representatives present: Representatives Harman, 
Hunter, and Chu.

  OPENING STATEMENT OF HON. JOHN L. MICA, U.S. REPRESENTATIVE 
                   FROM THE STATE OF FLORIDA

    Mr. Mica. Good morning. I would like to welcome you to a 
joint hearing today of the U.S. House of Representatives and 
the U.S. Senate. The committee in the House is the House 
Transportation and Infrastructure Committee; in the Senate, the 
Environment and Public Works Committee. This is a meeting of 
two full committees of Congress and a bicameral, bipartisan 
hearing.
    So with that, I would like to welcome you, get everyone 
settled here, our witnesses, and Members of Congress.
    I am Congressman John Mica and I chair the House 
Transportation and Infrastructure Committee.
    There are a few more folks coming in here.
    The purpose of today's hearing is to take testimony and 
listen to public comments relating to major transportation 
legislation, reauthorization that will be considered by both 
the House and Senate shortly.
    Let me first say thank you so much to my co-partner in this 
endeavor. We both have important responsibilities and I have 
already had the pleasure of working with your U.S. Senator who 
chairs the counterpart committee in the U.S. Senate. She has 
been absolutely delightful to work with and most cooperative in 
this new enterprise of the House and Senate working in an 
unprecedented fashion. So I thank her. I am pleased to be in 
her State. Let me yield to her first.
    The order of business will be after hearing from your 
Senator and my co-partner, I will introduce the members for a 
brief opening statement that have joined us today, and Ms. 
Boxer will recognize the witnesses that we have before us.
    So with that, thank you again for hosting us here today and 
for this unprecedented joint House/Senate hearing.

STATEMENT OF HON. BARBARA BOXER, U.S. SENATOR FROM THE STATE OF 
                          CALIFORINIA

    Senator Boxer. Thank you so much, Chairman Mica. It is 
indeed a pleasure to welcome you to California. The chairman 
was saying he got stuck in some traffic since he has been here, 
and I said, welcome to California, to Los Angeles. That is why 
we are so happy to have you here. We did not set that up. We 
get this at every hour. The other day I said, well, why is it 
so crowded? It is 2 o'clock. We realized 2 o'clock, 3 o'clock, 
1 o'clock--we have work to do when it comes to moving people 
efficiently. That is what, of course, brings us together.
    I want to thank all the other Members of the House who are 
here. We are so thrilled to have you and all the witnesses. It 
is a wonderful witness list. It shows how unified we are on 
this issue of a robust transportation bill.
    I know you are going to hear from Congresswoman Harman. 
This is maybe her last official bit of responsibility as she 
moves on to other challenges. But, Jane, I will miss you and I 
welcome you here today.
    Although colleagues in Congress differ on some issues--I 
would say many--we all agree that we have to create more jobs. 
We have to accelerate our economic recovery. We believe--all of 
us coming from different parties and different places on the 
spectrum--that now is the time to roll up our sleeves and get 
to work on a transportation bill. The chairman and I agree it 
ought to be a 6-year bill.
    Surface transportation improvements will definitely create 
jobs in the construction industry. Is Bettina here? Did we 
bring those signs with us? Do we have people to hold them up? 
Oh, OK.
    I want to do something that is rather unusual. At one of 
our hearings in Washington, Mr. Chairman and members, we were 
told by one of the union representatives that we could fill 20 
stadiums the size of the Cowboys stadium where the Super Bowl 
was played recently with unemployed workers for a total of 
nearly 2 million people. That created a very powerful image in 
my mind. So when you are all out there--I know it is sort of 
hard to do. If you could turn around and show the Members of 
Congress what you are showing the audience; 20 of these. Look 
at that. Each dot represents a human being. That is how many 
unemployed construction workers we have. In California, we have 
about 10 percent of those. So it is really a shocking thing, 
and we wanted you to see it.
    Thank you, all of you, who helped with that.
    One of the most effective and far-reaching ways to create 
jobs is to fix our Nation's outdated infrastructure, and we 
need to do it to remain a No. 1 economic power. Our 
transportation systems used to be the best in the world, but 
investments have not kept up with the needs. We are falling 
behind. Again, we have to move people. We have to move goods.
    Now, Mr. Chairman and members, I do not know if you are 
aware of this, but 45 percent of all containerized cargo 
destined for the continental U.S. passes through our ports here 
in California; 45 percent. That number is going up. Traffic 
through west coast ports alone is predicted to triple by 2035. 
Now, this means economic growth, and we are all for economic 
growth. But we have to be prepared for it, and we expect that 
freight handled by trucks is expected to double during that 
same period.
    These delays have a ripple effect across our Nation, and we 
know that when the delivery of goods gets tied up, just like 
you, Mr. Chairman, get tied up in traffic and I do, this is an 
absolute cost of business and it is an absolute cost to our 
health because of congestion and all the things that we face. 
The time delays and the health problems that come from this are 
just unacceptable. We foul the air we breathe. We create safety 
concerns. The California Air Resources Board attributes 2,400 
premature deaths to diesel emissions, and it estimates that the 
health costs of diesel emissions could be as high as $200 
billion by 2020.
    So when you look at all these factors and you put them 
together, it says to me--and I hope it says to everybody here--
we have to put aside lots of our differences and move forward. 
By reducing congestion, we are going to improve air quality and 
our public health. We are going to move traffic. We are going 
to help business, and it is going to be a very smart thing to 
do.
    You may have heard that Chairman Mica and I decided to sit 
side by side at President Obama's State of the Union Address 
last month. The President was very happy to see us sitting 
together. This may not seem to be a big deal to any of you, but 
believe me, forever we have been sitting separate and apart, 
Republicans and Democrats. But we decided to try something 
different, and it was really good because we started to talk to 
each other. We had already met in my office. We are truly 
working together, and I am also working very closely with 
Senator Inhofe, my ranking member on the committee.
    Now, I will tell you, last week we had an amazing hearing, 
Mr. Chairman. We had Chamber of Commerce President Tom Donohue 
sitting next to AFL-CIO President Richard Trumka, and they 
together sat side by side. Now, these are two guys who are on 
the opposite sides of so many issues and opposite sides of so 
many elections. They sat side by side with the same message. We 
have to have a robust transportation system if we are going to 
compete in the global economy.
    In closing, I want to talk a little bit about why I am so 
thrilled that you are here, Mr. Chairman, with members of your 
committee and others, in Los Angeles. You are going to hear 
from people today who have come up with a tremendous way to 
leverage our funds, and that is the key. We all know what has 
happened to the Highway Trust Fund. We know how tough it is to 
keep the money flowing. So the notion of leverage is so 
important.
    When the mayor and the supervisor came and with them all 
the labor and management all together, saying there is a way 
that we can take Los Angeles transportation initiative where 
people voted to tax themselves--a sales tax--for specific 
projects, and if the Federal Government can step up to the 
plate and frontload those dollars, we can begin to move forward 
and complete all of these projects in 10 years rather than 30, 
put all those people to work, get lower prices because right 
now we know that you can get much better deals because of this. 
The sad truth is we are in this recession. The construction 
industry is down. When they came to me with this idea, I 
embraced it immediately because it was really a no-brainer. How 
smart is that?
    So we are able to give Los Angeles in this first tranche of 
funding the ability to get a $500 million loan, and the cost to 
the Federal Government is $20 million. Now, why is it so cheap? 
Because there is an absolute stream of funding that we can 
count on at virtually no risk to taxpayers.
    So we started looking at the TIFIA program. We used it. My 
idea going forward--and there are many ways you could do this, 
but I love the fact that TIFIA is already in the law and we can 
expand it and move forward with this as a model.
    So I want to thank my friends in Los Angeles in local 
government because it is a brilliant idea. I really believe 
this. The chairman and I are already discussing how we can make 
this better.
    So this is a joint hearing. By the way, this is a rare 
moment. We do not do this a lot. It indicates our shared view 
that there is an urgent need to improve the Nation's crumbling 
transportation systems to get our economy back on track. I am 
so delighted to be here today with my counterpart in the House, 
and I look forward to hearing from him and from everybody here. 
Thank you very much.
    Mr. Mica. Thank you so much. Thank you again for your 
leadership in the Senate on this important issue.
    I might add too that this is a series of hearings that we 
planned, and we are going across the country. We have been in 
Columbus, Ohio, Indianapolis, Chicago. We were up in Oregon, 
over in Vancouver, Washington, Fresno yesterday, here, again 
graciously hosted in a cooperative joint hearing with Senator 
Boxer. We leave today. We will be in Oklahoma, Tennessee, 
Arkansas, back in Florida. Then we have several more that we 
plan to finish.
    The purpose of the hearings and the series of hearings is 
to solicit input from people who deal with the Federal 
Government on transportation issues and seek their 
recommendations. That is the reason we are here.
    The first of the hearings we actually did in Beckley, WV, 
and Mr. Rahall, who is the ranking Democrat, the Democrat 
leader of the committee--in his hometown district. So we are 
trying to make this a truly bipartisan, bicameral effort.
    Thank you again.
    The order of business, as outlined, we will continue with.
    First of all, I ask unanimous consent that members not on 
the committee be permitted to sit with the committee at today's 
hearing, offer testimony, and ask questions. Without objection, 
so ordered.
    We are pleased today to have a very good turnout, some 
members of our committee and some from the area.
    Let me take first the liberty of recognizing one of the 
individuals who is a great leader. I have been out in her area 
on another project. But Grace Napolitano, Representative 
Napolitano. I will recognize each of the members for several 
minutes of commentary or opening statements. You are 
recognized.

STATEMENT OF HON. GRACE F. NAPOLITANO, U.S. REPRESENTATIVE FROM 
                    THE STATE OF CALIFORNIA

    Mrs. Napolitano. Thank you, Mr. Chair. It is a great 
pleasure being here.
    Talk about transportation. I left my house almost at 
quarter of 7 this morning, and I got here late. So you 
understand the issue that we have is very, very pronounced.
    Part of what we deal with in our area, Mr. Chair and 
Honorable Senator, is that we do not have enough mass 
transportation for the working class in my area. You understand 
that when you see people that are driving more and more cars 
because they have to get to work or they have to get where they 
have to go.
    Being on this committee now for 12 years--well, for almost 
3 years now--has been a great opportunity for us to be able to 
see the inner workings, how do we work with the local entities. 
We worked with Mr. Kempton, Mr. Knabe, and sometimes Mayor 
Villaraigosa to find out how can we be more effective in 
getting the funds to do the projects like the expansion of 
Santa Ana Freeway which is a three-lane. It is called the 
biggest parking lot in the sky. It just creates a lot of 
environmental problems for the communities.
    So there are many, many areas that we want to ensure, like 
the movement of freight to the rest of the Nation that comes 
out of the ports, 40-45 percent of the Nation's goods. Those 
are the issues that we face at least in my area. I can tell you 
that I see some of my adjoining members that also face these 
challenges.
    So I look forward to hearing some of the input, and thank 
you again for being so generous and coming to our area. I just 
wish it had been a little closer to my house.
    [Laughter.]
    Mr. Mica. Thank you.
    Let me recognize another Californian who is a member of our 
committee, new on the committee, but we are pleased to have 
him, Duncan Hunter, the gentleman from California.

 STATEMENT OF HON. DUNCAN HUNTER, U.S. REPRESENTATIVE FROM THE 
                      STATE OF CALIFORNIA

    Mr. Duncan Hunter. Thank you. Mr. Chairman, Chairman Boxer, 
great to be here.
    This is my first year on this committee. I got on it for 
two reasons because I am from San Diego and there are two 
things that we really care about. That is infrastructure and 
water. I think those are two very important things that San 
Diego shares with L.A. Water infrastructure. People want to 
have clean drinking water,and they want it cheap. They also 
want to not be in traffic all day long every day like we see 
here in Los Angeles.
    We also have an opportunity, I think, to expand the 
maritime shipping lane, shipping things from San Diego, for 
instance, all the way up to Washington State, relieving 
congestion on the roadway and actually shipping goods north 
along the coastline.
    It is just great to be here.
    What we need to learn how to do is obviously leverage 
private dollars with public dollars. The furthest down that we 
can push projects so that you are able to leverage them 
locally, that is what is important and that is the way that we 
are able to make sure that these projects are efficient and 
effective and that they do not waste money because they have 
oversight by people who actually have jobs on the line, and 
that is private industry for the most part.
    So it is great to be here. Thank you for having me and I 
look forward to the testimony.
    Mr. Mica. Thank you so much.
    Now let me yield to the gentlelady from Florida. She is the 
immediate past chair of the Rail Subcommittee and current 
ranking member of that subcommittee in the House.
    Ms. Brown.

 STATEMENT OF HON. CORRINE BROWN, U.S. REPRESENTATIVE FROM THE 
                        STATE OF FLORIDA

    Ms. Brown. Thank you, Chairman Mica and Chairwoman Boxer, 
for holding this hearing today.
    I also want to say that one date that you all had--me and 
Mr. Mica talked about that during the opening of the session. I 
made it quite clear that one date don't constitute a marriage, 
but it seems like we are moving along in the right direction.
    [Laughter.]
    Ms. Brown. I am really happy about that.
    Senator Boxer. I will be sure and tell my husband you are 
not threatening.
    Mr. Mica. I will tell Pat too. The bed is already crowded.
    [Laughter.]
    Ms. Brown. Let me just move on. I want to thank Los Angeles 
for hosting this hearing--the mayor. I think Los Angeles is a 
perfect place to have this hearing because you all have every 
mode of transportation, and without the port in Long Beach and 
the port in L.A., the United States would not have the goods 
and services they need.
    I arrived last night and I was in traffic for over an hour 
just going from a short distance. So I understand the real 
challenges that we face in this area.
    I also understand that one additional lane will not help 
us. We have to come up with ways to move people, goods and 
services.
    When I travel around the world, they always ask us about 
our freight rail. You all have done some very innovative things 
here with the port. I am always asking them about their high-
speed rail.
    I have to tell you that it is very painful for me to be 
here today because in the next couple of days you all will 
probably benefit from the hard work that we have, and we will 
lose our money for high-speed rail and you will probably 
receive it. I am so distressed. But I know that you will 
leverage it and you know that for every billion dollars that 
you receive, it will generate 44,000 permanent jobs. So you 
will be able to put some of those construction people to work 
that my Florida with our Governor--no vision, no leadership.
    I want to thank you all for having us here, and I am going 
to leave as quickly as I can.
    Senator Boxer. Could you tell us what you really think?
    [Laughter.]
    Ms. Brown. I yield back the balance of my time.
    Mr. Mica. Well, we can clean the record up a little.
    [Laughter.]
    Mr. Mica. Do not forget we have to go back there, Corrine.
    Let me yield at this time to the gentleman from 
Pennsylvania. He currently chairs the Rail Subcommittee in the 
Transportation and Infrastructure Committee of the House.
    Mr. Shuster.

 STATEMENT OF HON. BILL SHUSTER, U.S. REPRESENTATIVE FROM THE 
                  COMMONWEALTH OF PENNSYLVANIA

    Mr. Shuster. Thank you, Chairman Mica and Chairman Boxer, 
for having us to California.
    I hail from Pennsylvania, rural Pennsylvania. People ask 
why do you come to these big cities when you do not have the 
kind of problems that Los Angeles and New York and other places 
face. But people sometimes fail to realize that what happens in 
the Port of Los Angeles and the Port of Long Beach affects us 
east of the Mississippi. I think the number is about a third of 
what comes into the Ports of Los Angeles and Long Beach go east 
of the Mississippi, end up in Pennsylvania in some of our 
stores. So the movement of goods, movement of people affects 
the entire Nation. So that is why I am here. That is why I am 
on this committee, to try to improve transportation and the 
infrastructure for all Americans because it does affect us.
    Today I look out here. I know everybody here used a mode of 
transportation or used the system today to get to where we are. 
But even at home a housewife sitting at home feeding her 
children, when she goes to get that milk out of the 
refrigerator, it came from a farm. It went to the grocery 
store. It got to the house. So every day we are affected by the 
transportation system, and we need to make sure that we are 
improving it.
    I applaud Chairman Mica for this tour. We have been 
together now for 5 days in about six or seven cities--I have 
lost count--but going around the country, hearing the problems, 
and making sure people understand that we are going to have to 
do more with less. The dollars just are not there. But I think 
what we have heard across this country, as we have traveled, is 
that we can do things differently to speed up the process, and 
when you save time, time is money. When we look at the way that 
some of the States are able to use their dollars and use those 
dollars five and six times as much, as opposed to when the 
Federal Government gets involved, we have to streamline the 
process. It was mentioned by Senator Boxer to leverage our 
dollars with Federal dollars, State dollars and private 
dollars. That is extremely important for us to do and 
streamline the process.
    So I appreciate you folks being here today in our panels. I 
am looking forward to hearing what they have to say. We will go 
back to Washington and try to make this thing work better for 
all Americans. Thank you.
    Mr. Mica. I thank the gentleman.
    Let me yield to another Californian and a very 
distinguished member of our committee. She was with us 
yesterday in Fresno, so her second California hearing. Laura 
Richardson, Ms. Richardson, you are recognized.

 STATEMENT OF HON. LAURA RICHARDSON, U.S. REPRESENTATIVE FROM 
                    THE STATE OF CALIFORNIA

    Ms. Richardson. Thank you very much. Madam Chairwoman, 
Senator Boxer, and Mr. Chairman Mica, first of all I want to 
say a special thank you for you coming to Los Angeles. You 
could have gone to any cities in this State, but the fact that 
you chose to come here--we appreciate it and the leadership 
that you have shown.
    I happen to be one of only two Democrats on the 
Transportation Committee that actually represents Southern 
California with Congresswoman Napolitano. So we have a 
tremendous responsibility not only as Democrats but I believe 
we are the only two members in Southern California who are 
actually on the committee as wall. So we have a heavy lift, and 
we look forward to all of your comments today.
    Yesterday, as Chairman Mica said, in Fresno we got an 
earful. We heard concerns about NEPA and CECWO, which I worked 
on legislation on and look forward to working with the chairman 
and the chairwoman on.
    We also heard about utilizing funds, HMT, which have just 
been wasted and not been fully utilized.
    Then finally, having a national goods movement strategy, 
which has really been a lifelong effort on my part that we have 
devoted legislation on as well.
    Today, I look forward to hearing from our witnesses, all of 
your concerns. Mayor Villaraigosa and County Supervisor Knabe, 
you have been to us and you have talked about the 30/10, and I 
think to hear it firsthand with these two very important 
chairwoman and chairman is going to be critical to our success.
    To Mr. Kempton, you know I view you as the guru of the 
State of transportation that we can all learn from. So I look 
forward to your comments.
    Then finally, our new chair of the L.A. Chamber who happens 
to be a businessman in my district of general aviation--I look 
forward to hearing from all of you.
    So as I conclude, I just want to say that this bill is a 
bipartisan bill. It is a bicameral bill. We are here because we 
want to get it done and we want to get these roads and bridges 
and things taken care of.
    Finally, to my colleague in Florida, Congresswoman Madam 
Ranking Member Brown, we accept transplants from Florida 
anytime. So you are welcome here.
    [Laughter.]
    Ms. Richardson. Thank you, Mr. Chairman.
    Mr. Mica. Well, thank you so much, Ms. Richardson.
    Now, while she is not on the committee, it is someone I 
have the greatest respect for. We came early together to 
Congress, and she is leaving now. She will provide great 
leadership where she is destined to go now, but I will tell 
you, you could not have a finer Representative in Congress, 
more intelligent, determined, and someone who has contributed 
so much. She is the ranking member of the Homeland Security 
Subcommittee on Intelligence and serves on Energy and Commerce. 
But I am just delighted.
    Did you not say, Ms. Boxer, that this may be her last 
hearing?
    Senator Boxer. Official.
    Mr. Mica. Official hearing. I salute you, Jane Harman, and 
recognize you.
    [Applause.]
    Mr. Mica. Jane.

  STATEMENT OF HON. JANE HARMAN, U.S. REPRESENTATIVE FROM THE 
                      STATE OF CALIFORNIA

    Ms. Harman. Thank you all. This is true, that this is my 
last congressional hearing, and I have to say that 
participating in the first bipartisan, bicameral hearing in Los 
Angeles is the best going-away present anyone could give me. 
Chairman Boxer and Chairman Mica are the mass transit dream 
team, and I predict that they will finally bring the Green Line 
to LAX.
    [Applause.]
    Ms. Harman. In 2 minutes, let me just make a few points.
    First, the 30/10 initiative is a brilliant idea. Our mayor 
and his team deserve enormous credit for conceptualizing it. 
With unemployment in the area's construction trades at almost 
40 percent, this plan can create 165,000 jobs in Los Angeles 
starting now.
    But it is not just about Los Angeles. This initiative has 
the power to transform infrastructure financing throughout the 
Nation, creating a million jobs, good, high-paying, much-needed 
construction jobs.
    Second, the Government should not do this alone. We all 
understand why printing more money and increasing the deficit 
are dangerous. So what the Federal Government can do, should do 
is help bring private money to the table. Public/private 
partnerships, so-called P3's, are the way to bring about 
innovative financing. I have discussed this with Transportation 
Secretary Ray LaHood in many meetings that I have had with him, 
and he and his team are actively pursuing it. He and others 
tell me that Los Angeles can be the template for the Nation.
    There are several ways that this can happen. One is through 
TIFIA grants. These grants were inspired by the successful 
public/private partnership of California's Alameda corridor. I 
applaud Chairman Boxer and Chairman Mica for your willingness 
to explore expanding and adapting TIFIA. In my view, TIFIA 
should be amended to make private capital investment easier.
    There are also bond programs that could interest investors. 
For instance, QTIP allows program financing to come directly 
from private sources. The Federal Government's role is then to 
provide a tax credit for all or a portion of the interest on 
these bonds. I have heard that QTIP may be dead but wonder if 
this private capital feature is well enough understood. This 
gets me to my third point.
    Let us get U.S. banks and investors involved in these 
projects. Foreign banks often play a major role in public/
private partnerships, but there is no reason that domestic 
banks should not play a major role. I know that some are 
interested. Let us get them involved.
    Finally, in closing, I believe no jobs program pending in 
Congress is more important than making this innovative 
financing a reality, and I hope that my successor, whoever she 
or he or may be, is listening.
    Senator Boxer, thanks for your personal comments and to 
you, Congressman Mica, as well. I depart Congress on Monday 
knowing that this issue is in good hands.
    Mayor Villaraigosa, supervisor, and MTA Chair Don Knabe, 
our local congressional delegation, including hopefully my 
State of the Union date, David Dreier, Denny Zane, Maria Elena 
Derazo, and many others have put together an incredible local 
coalition here in Los Angeles. Working together on a 
bipartisan, bicameral basis, it is sure clear to me that, yes, 
we can.
    [Applause.]
    Mr. Mica. Thank you so much again for your comments and for 
your service. We are truly going to miss you come Monday.
    Let me introduce another Californian who is not on the 
committee but has taken time to be with us. She serves on the 
Judiciary and Small Business Committee, the gentlelady from 
California, Ms. Chu. Welcome, and you are recognized.

STATEMENT OF HON. JUDY CHU, U.S. REPRESENTATIVE FROM THE STATE 
                         OF CALIFORNIA

    Ms. Chu. Thank you so much, Senator Boxer and Chairman 
Mica, for holding this very important hearing here in Los 
Angeles and for inviting me to attend. Although I am not a 
member of the Transportation Committee, transportation is one 
of my highest priorities.
    I truly believe it is one of the highest priorities for my 
constituents on the entire Southland. It is so important that 
here in November 2008 Angelinos overwhelmingly passed Measure 
R. Can you imagine during a recession residents agreed to tax 
themselves more?
    Clearly we here in L.A. recognize the need for better, more 
efficient transportation in the county's largest area. Measure 
R will raise $35 billion and help complete 12 different transit 
projects connecting millions across this county. Our region 
desperately needs this investment. I am so proud that Angelinos 
are ready and willing to pay for it.
    But it is important for the Federal Government to recognize 
all the work we are putting into building a truly 21st century 
transportation system for the Nation's most congested county. 
For decades, the Federal Government acknowledged the need for 
public transit investment, but current policy only requires the 
projects to put up a 20 percent local match, and that does not 
take into account any previous local investments made in the 
transit line. Areas that offered a greater match or have 
invested more heavily in the system received no reward for that 
work, and I think that is really a mistake.
    Rewarding local investment would help projects like the 
Gold Line Foothill extension which I understand Chairman Mica 
personally visited with Chairman Dreier just a few months ago. 
The county has invested $1.5 billion in building the first two 
phases of the project which will have created 14,000 jobs. 
After that, we will need a fraction of that amount to complete 
a line that goes from downtown L.A. all the way out to the 
county line.
    But the 30/10 plan is truly important. Thanks to Mayor 
Villaraigosa and Chairman Knabe, this is a great plan that will 
allow us to complete 12 Measure R transit projects in 10 years 
instead of 30. It will allow L.A. to leverage our local dollars 
and speed up our construction by decades. With the Federal 
Government's help to augment this serious investment in local 
transportation, we can create over 915,000 private sector jobs 
in just a decade.
    Hopefully, we can come away from today's hearing with one 
thought, that we can make our Federal dollars stretch further. 
That is why the new authorization bill should recognize and 
reward dedicated local investments like Measure R and help us 
build projects like the Gold Line and complete the 30/10 Plan. 
With the Federal Government's help, we will create jobs, reduce 
construction costs, relieve traffic congestion, and eliminate 
hundreds of thousands of pounds of pollution every year. This 
type of reform will encourage other areas to follow our 
footsteps. When local communities raise their own money, the 
Nation and the taxpayers truly get the most bang for the buck.
    So I thank you for allowing me here today and I look 
forward to the testimony.
    Mr. Mica. Well, thank you.
    I think that concludes our members.
    Let me just make a couple of quick comments. First of all, 
I thank again Senator Boxer for helping assemble the witnesses 
and other members who have asked witnesses to come forward. We 
have a pretty extensive two panels here. We are pleased to have 
you.
    In the previous hearings that we have held, I have asked 
that individuals not read a written statement, but rather offer 
to us the provisions they would like to see in or out of the 
law and the legislation that we will be drafting.
    When we leave here, on the House side--and Senator Boxer 
has talked about what they are going to do on the Senate side--
we are going to draft legislation that will determine some of 
the important components of, again, how our policy is set forth 
for, hopefully, the next 6 years. Foremost in that, of course, 
is the financing. If we had all the money in the world, we 
would not have a problem. We probably would not even be here. 
But we do not and we are in some tough economic times.
    So we have to do a couple of things: first of all, 
stabilize the trust fund. I do not know exactly how we will do 
that, but it has to be done. The second thing is there is a 
great deal of money not going out that is in different 
accounts. Governor McDonnell of Virginia came in and found $1.5 
billion. We need to find every dollar available for 
infrastructure and good projects and get it moving. If it is 
anywhere in the system or has not been expended, that is 
another source of funds.
    The other thing is there are programs that now work, some 
of them well, some of them not well. The Senator and I have 
already discussed TIFIA. I think Mr. Inhofe and others, Mr. 
Duncan--if we have programs like TIFIA that work, maybe we can 
even make them work better. So we want ideas specifically on 
how we can do these things.
    People ask for more money or raising taxes. In the rail 
realm that Mr. Shuster and Ms. Brown have a say over, we have 
$35 billion in a RIF account, sitting in a RIF account not 
being used--Railroad Infrastructure Financing. So looking at 
programs that we have now, I need your suggestions how to make 
that work, if it is a good program, make it work better, and if 
it does not work, make it work.
    So financing is a key. Ms. Harman just spoke to public/
private partnerships. If we define those, give us the 
definition of what we should have in the law that would make 
the best possible relationship, not to give the store away to 
the private sector or some corporation, protect the public 
interest, but to make that work. If we are going to do 
infrastructure banking, GARVEE bonds, revise Build America, 
whatever it takes, we need those suggestions and we need them 
post haste.
    The other thing I will close with is the process. We have 
heard it over and over--and I hear it in Washington. We just 
heard it on the road. Projects that should take months are 
taking years. The Federal Government gets involved and the 
timeframe goes up dramatically.
    Then the other problem we have is the cost escalates, not 
to mention that the problem you also have with these mega-
projects is that the players change. We have a game-changing 
situation in Florida right now with a new Governor. This would 
have been a done deal, but now we are into our third or fourth 
Governor. Governor Bush worked with previous Governors on some 
things. You had Schwarzenegger who was a very strong proponent 
of transportation infrastructure initiatives. So we have to 
compress that time also, consolidate some of the programs that 
we have.
    So those are my points.
    I am pleased to be here. I have a great partner to work 
with. Ms. Boxer has already reached out in an unprecedented 
fashion, and that is why we are here today.
    So with that, let me yield the chair to her to take the 
balance of the meeting, recognize our witnesses, and thank her 
again and your staff. Everyone has been just great in helping 
us put this together. Thank you.
    Senator Boxer [presiding]. Well, Mr. Chairman, thank you 
again for your generous remarks. I do want to thank staff, your 
staff and mine. They are phenomenal. These things look easy 
when they come together, but there are so many parts to the 
puzzle.
    So we are going to get right to our witness list. We have 
nine witnesses. It is a bipartisan witness list. It is business 
and labor sitting next to each other. This is all good for the 
message we want to send out of today's hearing.
    So I would ask unanimous consent that our witnesses' full 
statements be included in the record. Is there objection?
    [No response.]
    Senator Boxer. Hearing none, that will be the case. We do 
run a quick meeting here.
    [Laughter.]
    Senator Boxer. I would also say you can read your statement 
or not read your statement, but the bottom line to us is you 
give us great ideas. I mean, 30/10 came from you. So if you 
have any more like that up your sleeve, this is the moment to 
tell us.
    So we are going to start. At the request of the mayor, we 
are going to call first on Hon. Don Knabe, chairman, Los 
Angeles County Metropolitan Transportation Authority and Los 
Angeles county supervisor of the 4th District, County of Los 
Angeles. As a former county supervisor, you do us proud. So 
welcome, Mr. Supervisor, and please begin.

STATEMENT OF HON. DON KNABE, CHAIRMAN, LOS ANGELES METROPOLITAN 
 TRANSPORTATION AUTHORITY; AND LOS ANGELES COUNTY SUPERVISOR, 
              4TH DISTRICT, COUNTY OF LOS ANGELES

    Mr. Knabe. Good morning, Chairwoman Boxer and Chairman 
Mica. It is my privilege to welcome you to Los Angeles County, 
the largest county in the United States of America. We are 
honored to have you here in this historic bipartisan effort of 
transportation infrastructure.
    So I would just like to outline a few things on our 
perspective as it relates to the next surface transportation 
bill.
    But before I do that, just sort of a brief idea of why 
there is congestion at 2 o'clock in the afternoon and 3 o'clock 
of the organization that I am honored to serve as chairman. We 
are the third largest public transportation agency in the 
United States. We are responsible for all transportation 
planning, coordination, design, construction, operations, bus, 
subway, light rail, bus rapid transit, and the services for all 
of our 10 million residents here in Los Angeles County in the 
4,000 square miles. We partner with Caltrans and Metrolink to 
support a very extensive HOV and commuter rail network. We are 
also undertaking major improvements to our region's highway 
system. We are a very important part of the Nation's goods 
movement, as you know, and in my own district, I have the Ports 
of L.A. and Long Beach, as well as the Los Angeles 
International Airport. Our Metro service is about 1,500 square 
miles of service. Over 200 bus routes, 75 miles of rail lines, 
over 400 miles of carpool lanes that crisscross this great 
county. We have over 9,000 dedicated employees and an annual 
budget that exceeds $3.5 billion.
    But as it relates to policy issues, I think--the mayor and 
I were sort of commenting that our testimony might be redundant 
because we have heard some very positive things from the 
members that they were talking about.
    First of all, we need to recognize the importance of non-
Federal investments in transportation. That is State, local, 
and private. Every time we go to Washington, the Feds tell us 
to come back with a revenue source. Well, the voters of this 
county, Los Angeles County, have responded three times in the 
last 3 decades to tax themselves for transportation 
improvements, and these three taxes, taken together, amount to 
about $1.5 billion annually. To date, the Federal Government 
has really largely turned a blind eye to the local leadership 
shown by this agency and local taxpayers, along with others 
like us across the Nation. The current surface transportation 
program neither recognizes nor rewards this kind of priority 
policy or incentivizes other metropolitan areas to do the same 
thing.
    We worked very hard to put this program together. We have 
been advancing, and we would like to continue to suggest two 
very innovative financial concepts that would really help 
leverage local transportation. We call them ``smart Federal 
dollars,'' and we say smart Federal dollars because these funds 
coming in an era of a financially stressed Highway Trust Fund, 
as has been mentioned already this morning, make the most of 
existing dollars.
    We strongly believe that the smart, targeted, and 
innovative financing mechanisms can achieve two national 
priorities: minimize the impacts on the Federal budget and 
maximize the generation of new private sector jobs, 
particularly in the small business sector and particularly here 
in Los Angeles County where we have an unemployment rate of 
close to 12.7 percent.
    A new Federal approach to financing, if it is incorporated 
in the next surface transportation bill, will leverage projects 
at the State and local levels that can achieve these 
priorities. Our two priorities would be one that we have been 
talking to all of you about. It is one of qualified 
transportation improvement bonds and, two, the enhanced 
Transportation Infrastructure Financing and Innovation Act 
program, TIFIA, which we have outlined in greater detail. I 
will not bore you with all the details in our written 
testimony. We believe this is a very sound approach, and the 
fundamentals of this proposal offer a very reasonable and 
prudent path for Federal policymakers who like all of us and 
all of you are struggling to craft a strong and meaningful 
surface transportation bill in a very demanding fiscal 
environment.
    It is very difficult to outsource a construction job or a 
transportation project here in America. Whether that project is 
a light or heavy rail project in Southern California or a 
highway improvement in Montana, the Federal Government's 
investment in transportation projects is an investment in 
America.
    So taken together, these proposals really, I think, hold 
the promise of reinvigorating our Nation's infrastructure, 
creating close to over 900,000 jobs nationwide without 
burdening the Federal Government with a very large bill.
    As you prepare to craft this new surface transportation 
bill and reform what needs to be reformed, we truly believe 
that both the House and Senate be mindful not to discard 
programs with a proven track record, programs such as the New 
Starts program have assisted many jurisdictions like Los 
Angeles County to address congestion and environmental problems 
while demanding a very significant non-Federal investment. If 
you are looking for a model in the future, we believe this is 
it. We should not be talking of eliminating this program. We 
should be discussing creative ways to expand its approach and 
how that can serve as a model for other parts of the Federal 
program, and we are a willing partner in that. We need to use 
the power of the Federal Government to help leverage Federal 
and non-Federal sources of money.
    I need to make it clear. I am not saying that we need a new 
Federal program for loaning money or a new Federal 
infrastructure bank. We here in Los Angeles County just do not 
need the Federal bureaucracy picking winners and losers. That 
just does not work for anyone. We need flexibility. We need 
self-determination and the power to access federally subsidized 
financing to make these projects possible.
    Last, I want to make sure I say this. Our strong and 
sustained support for leveraging local dollars does not in any 
way mean that we want to diminish existing Federal assistance. 
You have been a good partner. We continue to want to work with 
you.
    We appreciate the opportunity to be a part of this very 
historic joint hearing and thank you for your time and 
attention.
    [The prepared statement of Mr. Knabe follows:]

    [GRAPHIC] [TIFF OMITTED] T5228.001
    
    [GRAPHIC] [TIFF OMITTED] T5228.002
    
    [GRAPHIC] [TIFF OMITTED] T5228.003
    
    [GRAPHIC] [TIFF OMITTED] T5228.004
    

    Senator Boxer. Supervisor, thank you very, very much for 
that.
    Next we call on Mayor Villaraigosa. We are delighted to see 
you here, and we thank you for visiting us in Washington--you 
and the supervisor and others--and giving us this 30/10 
concept.
    Thank you.

 STATEMENT OF HON. ANTONIO R. VILLARAIGOSA, MAYOR, CITY OF LOS 
                            ANGELES

    Mr. Villaraigosa. Thank you, Madam Chair, Chair Mica, and 
Members of Congress. I rarely come to a hearing where I see as 
many Members of Congress as are present today, and I think 
because there is an agreement, a bipartisan agreement, on this 
issue of transportation investments and infrastructure. It is 
not a Democratic or Republican idea.
    By the way, Chairman Mica, I think I told you yesterday, 
but for the rest of you, while it may be novel in the Congress 
for Democrats and Republicans to sit together, the first thing 
I did when I was Speaker of the California State Assembly, 
because of the partisanship that we had there in Sacramento, 
was sit Democrats and Republicans together. Both took umbrage 
with that action. By the way, they have been doing it now for 
13 years, and I am very proud of that because I think when 
people sit together, they get to talk and they realize they 
have a lot more in common than they do differences. Sometimes 
in politics we spend a little too much time on the differences.
    With respect to this proposal, let me say a couple things.
    First of all, you all mentioned the traffic in this county, 
and yes, it is true. We have the worst congestion in the United 
States of America. But, as Chairman Knabe mentioned, the 
taxpayers of this city and of this county, because we have the 
worst congestion, taxed themselves a penny and a half over the 
decades to investment in transportation infrastructure. In 
fact, when we put Measure R on the ballot, it was the middle of 
the recession. One ofthe Congress Members, Ms. Chu, was 
actually in the legislature at the time. She knows we barely 
passed the legislation to put it on the ballot by one vote in 
both houses. I was there day after day trying to get those 
votes. There was a great deal of opposition at the time, 
interestingly enough, and yet, on a bipartisan basis across the 
county, the people said they wanted to make these investments. 
I think when you think about the fact that it was in the middle 
of a recession that they did that, it shows that the taxpayers 
of this county recognized that we have to address gridlock, 
ngestion, the air quality that comes with it.
    Now, the chairman asked and both chairs asked that we be 
specific. I have a number of comments I was going to read, but 
instead, I do want to focus on what I would like you all to 
consider.
    First, we have to increase the budget authority for the 
TIFIA program, I would suggest, from $122 million to $375 
million or higher. TIFIA has been a successful program. It 
needs additional funding. When I was in DC at one of the 
hearings that Senator Boxer chaired, Senator Inhofe delivered a 
letter saying that we have to dramatically increase the TIFIA 
program because of the leverage opportunities that come with 
it.
    Second, we need to increase the share of project costs that 
TIFIA can cover. Right now, we can only use TIFIA for about a 
third of the project costs. We propose allowing TIFIA to be 
used for up to 49 percent of the project's cost.
    Third, allow the DOT to make an up-front, conditional 
credit commitment. This is like getting preapproval for a home 
loan. It would allow DOT to preapprove projects to receive 
TIFIA funding, provided they went through all the necessary 
environmental clearances.
    On that score, let me say something else that is not 
related to TIFIA, but is related to accelerating programs. I 
think we need to have a concurrent environmental review, not 
consecutive. Let me tell you why. We actually have tougher laws 
than the Federal Government here. So for us to have our 
environmental review, then yours, it just adds time to a 
project. That just does not make sense. It is the kind of thing 
that we do, all of us, that just does not make sense.
    Fourth, we need to allow the DOT to make a commitment to a 
program of related projects. Currently the DOT can only make a 
TIFIA commitment to one project at a time. Our change would 
allow DOT to make a commitment to several related projects at 
once.
    Finally, we need to allow the DOT to offer a limited 
interest rate hedge to projects that received an up--front 
commitment, in other words, preapproval. Just as homeowners can 
lock in on an interest rate and even buy down a point or two of 
their mortgage interest, this would allow the DOT to use some 
of the TIFIA budget to lock in an interest rate or buy down a 
point or interest for projects that had received preapproval.
    I want to acknowledge all of the Members who are here but 
particularly Jane Harman, Congressmember Harman, who mentioned 
30/10.
    One of the things that we have said to the Congress when we 
talked about the 30/10 plan, which would accelerate our transit 
projects from 30 years to 10, and create 166,000 jobs here in 
this area--by the way, the county unemployment rate is 12.5. 
The city of Los Angeles is 14.5 unemployment rate. It would 
create 166,000 jobs, save 10 million gallons of gas, reduce 
carbon emissions by 500,000 pounds a year, increase transit 
boardings by 77 million.
    Now, if we did this across the country, because this is not 
an earmark--this is a template for infrastructure investment 
across the Nation--we would create 922,000 jobs, according to 
the L.A. Economic Development Corporation, a nonprofit, 
independent--it did not come from the Mayor. It came from a 
nonprofit, independent organization that looked at what this 
program could do across the country with the amount of money 
that I am talking about in TIFIA. If we did a quality bond 
program as well, that could add and leverage, at a time of high 
deficits and debt, the money that we need for infrastructure 
investment.
    Finally, I want to say to both chairs, that we are in full 
support. We need to stop extending and we need a 
reauthorization bill that really addresses America's 
infrastructure needs.
    According to the American Society of Civil Engineers, we 
have a $2.2 trillion need over the next 5 years. For 
transportation alone, it is $546 billion. So this is an 
important way, another financing tool for us to create jobs, 
get people to work, and importantly, leverage what localities 
are doing.
    Since we last talked, Madam Chair, both Chairs, Chairman 
Mica, I now have 60 mayors behind this from the last meeting 
with you in Washington. The U.S. Conference of Mayors has 
unanimously come out in support of this effort, but 60 of them 
have signed on and said, we want to participate. So there is--
and by the way, Republican and Democrat--broad bipartisan 
support for this idea.
    Thank you.
    [The prepared statement of Mr. Villaraigosa follows:]

    [GRAPHIC] [TIFF OMITTED] T5228.005
    
    [GRAPHIC] [TIFF OMITTED] T5228.006
    
    [GRAPHIC] [TIFF OMITTED] T5228.007
    
    [GRAPHIC] [TIFF OMITTED] T5228.008
    
    [GRAPHIC] [TIFF OMITTED] T5228.009
    
    Senator Boxer. Thank you so much, Mayor.
    Now we are going to hear from the chair of the Los Angeles 
Area Chamber of Commerce. I want to make sure, Joseph, I say it 
right. Is it Czyzyk?
    Mr. Czyzyk. You got it. That is right.
    Senator Boxer. All right. Mr. Czyzyk.

STATEMENT OF JOSEPH A. CZYZYK, CHAIR, LOS ANGELES AREA CHAMBER 
                          OF COMMERCE

    Mr. Czyzyk. Chairman Boxer and Chairman Mica and 
distinguished Members of Congress, my name is Joe Czyzyk and I 
am the chairman of the Board of the Los Angeles Area Chamber of 
Commerce. We are the largest business organization in Southern 
California. It is a privilege for me to appear here before you.
    First, allow me to thank you for bringing this important 
meeting here to our city, to Los Angeles.
    Second, a quick word about our history, which is an 
extensive one. It was the L.A. Chamber of Commerce back in 1890 
that presented a resolution to Congress and hosted interested 
Members of the House and Senate for a tour of what we 
envisioned would become the Port of Los Angeles.
    Today, our Ports of Los Angeles and Long Beach are the 
largest in the Nation and are the backbone of trade with Asia. 
Our ports are a result of collaboration between business and 
our Federal Government.
    Let us not forget our LAX, the largest origin and 
destination airport for passenger use and the second largest 
air cargo airport in the United States, all built on a 1960s 
structural model with only one major improvement in 1984, and 
that was 27 years ago.
    This morning, you will hear about ways to kick-start 
vitally needed infrastructure projects here in Los Angeles 
County and across the Nation. Together we can once again become 
collaborators in improving our Nation's dated infrastructure.
    You know this without me saying it: better transportation 
drives jobs. Getting goods to market faster and people to work 
more efficiently is critical to our Nation's economic recovery.
    Here in Los Angeles, we are committed to reducing 
congestion, repairing and modernizing our infrastructure, and 
improving our environment and quality of life. With Measure R--
and you have heard a lot about it and you will consistently 
throughout this day--in 2008, which the Chamber, our business 
organization, fully supported--we fully supported a tax 
increase, if you can imagine that. A Chamber of Commerce--and 
worked to help pass, the region is committed to investing in 
our transportation system.
    In our city's history, businesses collaborated with our 
local officials, the environmental community, and labor, a 
coalition that again sits in front of you today united in 
support for a program to accelerate the development of those 
Measure R projects.
    Our county's voters did their part by taxing ourselves. Now 
Washington must do its part. Innovative financing tools from 
the Federal Government will stretch tax dollars further without 
any major impact to the Federal budget.
    Of course, we have all been talking about TIFIA. So by 
enhancing and expanding the current TIFIA program, the Federal 
Government will meet the positive demand to finance 
transportation projects and create much-needed new jobs. A 
flexible TIFIA program is needed that can move forward 
individual projects or a unified collection of projects. I am 
told that an enhanced TIFIA program could see as much as a 33 
to 1 return. So by investing $1 of Federal money, as an 
interest-free loan against our infrastructure bonds locally, we 
can put up to $30 to work.
    Senator Boxer. Could you say that one sentence again?
    Mr. Czyzyk. By investing $1 of Federal money, as an 
interest-free loan against our infrastructure bonds, we put as 
much as $30 to work.
    As a business owner, that makes good sense to me. I wish I 
had that kind of return in my business. This is the kind of 
collaboration we need from Washington.
    Specifically, the L.A. Chamber of Commerce recommends an 
increase to the TIFIA funding cap to reflect current demand. 
Existing funding is sufficient. The program is severely 
oversubscribed and eligible, high-quality and creditworthy 
projects are being turned away. Increasing the funding cap will 
help projects from California to Florida. That was for 
Congressman Mica's benefit.
    [Laughter.]
    Mr. Czyzyk. This will accelerate transit construction. This 
will put people to work.
    Our Chamber also specifically supports something that we 
have not spoken about, an increase to the airport passenger 
facility charge by $2.50 to help fund the needed improvements 
for our other airport called LAX. Why not finance improvements 
like the rest of the world by charging the users? After all, 
that is how the sales tax system works, and it is fair. It is a 
fair way to raise funds.
    In conclusion, it is important to recognize that almost 45 
percent of the goods that line the store shelves, supermarkets, 
and car dealerships around the other 49 and a half States--and 
the other half is Northern California--of this country have 
been offloaded from aircraft using LAX and ships docking at our 
two ports here in Los Angeles, then using our roads and 
highways to be transported to the rest of America. Our 
infrastructure has taken a beating, partially for being the 
goods movement conduit for America. We have stepped up by 
taxing ourselves to improve our infrastructure for ourselves 
and, unselfishly, for the rest of America. Now we need help 
from the Federal Government to get our infrastructure into the 
21st century.
    Our Chamber will be in Washington, DC. the first week of 
May for our annual Access DC trip. We have partnered with the 
mayor, MTA, the Los Angeles County Federation of Labor, and 
other groups to continue advocating for these critical 
infrastructure investments during our visit, and we hope that 
many Members of Congress will welcome our visit, those that are 
here as well.
    Please remember we have collaborated successfully before. 
We need to collaborate again.
    Thank you for coming here, and I appreciate the opportunity 
to testify.
    [The prepared statement of Mr. Czyzyk follows:]

    [GRAPHIC] [TIFF OMITTED] T5228.010
    
    [GRAPHIC] [TIFF OMITTED] T5228.011
    
    Senator Boxer. Thank you so much, Mr. Czyzyk. We look 
forward to seeing you in Washington, and maybe by May we will 
have a draft bill out and we will start moving on it.
    OK. Our next speaker is Mr. Robbie Hunter, council 
representative, Los Angeles/Orange Counties Building & 
Construction Trades Council. Again, members, this is labor and 
business sitting side by side, and I think that is a very 
strong message.
    Why do you not proceed?
    Mr. Hunter.

    STATEMENT OF ROBBIE HUNTER, COUNCIL REPRESENTATIVE, LOS 
 ANGELES/ORANGE COUNTIES BUILDING & CONSTRUCTION TRADES COUNCIL

    Mr. Robbie Hunter. Chairman Boxer, Chairman Mica, thank you 
for coming to California. The Los Angeles and Orange Counties 
Building Trades Council represents 150,000 construction workers 
and apprentices in the Counties of Los Angeles and Orange 
County. These trade workers work for privately owned 
construction companies in this area.
    For decades, there has been an absolute need for commuter 
transit and high-speed rail systems for commuters and commerce 
in California. There have been upgrades and modernization in 
some regions such as the Alameda Corridor, but these are few 
and have been less effective due to the lack of a real grid and 
extended support system that would maximize their potential.
    The political, business, and labor leaders of the County of 
Los Angeles and the city have made the decision that they 
cannot expect the Federal Government to fix the gridlock in our 
county and city. As a coalition, we stand ready and able to 
play the lead role in paying for and moving these projects 
forward, hopefully with the help of your committee.
    The building trades worked closely with Mayor Villaraigosa 
on Measure R and the Chamber of Commerce. At this time, the 
construction costs--and we would ask that this committee would 
fund to the level of $375 million. At this time, construction 
costs are running at 20 and 30 percent below projections, and 
this would be an absolute time for the Federal and State 
government and the county to take an opportunity here.
    The building trades and the construction industry in 
California--we are running at 40 percent unemployment. There is 
nothing better as a stimulus----
    Senator Boxer. Say that again so everybody hears that.
    Mr. Robbie Hunter. The unemployment rate among construction 
workers in California is running at 40 percent, and there is no 
better stimulant than to put a paycheck in a construction 
worker's hands on a public works project. Remember, these 
construction workers are working for private companies who do 
the lowest bid, and the only way they are going to get the next 
bid is do it once, do it right with the best trained workforce. 
We have the absolute formula to make the grid here in 
California a success. We are asking for funding to move this 
forward. We will repay that funding from Measure R. The 
taxpayers and the political and business leaders and labor 
leaders of this area are united, and we are asking for your 
help and your support.
    I have a lengthy testimony which I will not submit, and I 
appreciate not having to read it out. So thank you very much.
    [The prepared statement of Mr. Robbie Hunter follows:]

    [GRAPHIC] [TIFF OMITTED] T5228.012
    
    [GRAPHIC] [TIFF OMITTED] T5228.013
    
    Senator Boxer. Thank you so very much.
    Ms. Cindy McKim, director, California Department of 
Transportation, or Caltrans. We welcome you.

 STATEMENT OF CINDY McKIM, DIRECTOR, CALIFORNIA DEPARTMENT OF 
                   TRANSPORTATION (CALTRANS)

    Ms. McKim. Thank you. Chairman Boxer, Chairman Mica, 
distinguished Members of Congress, it is my pleasure to be here 
today representing the State of California. We appreciate your 
taking your time to come here to our State to seek input from 
us.
    I think that I do not want to repeat some of the key 
strategies that Mayor Villaraigosa and the others on the panel 
have already discussed. Suffice it to say that at the State 
level, we certainly recognize the need to invest strategically, 
improve project delivery, reward efficiency, and expand private 
investment and the ability to use new, creative financing tools 
for our projects.
    One of the key issues that we have had here in California--
we are facing a huge budget deficit, as you all well know, and 
those kinds of budget deficits make transportation funding 
extremely erratic. Nothing bleeds project delivery efficiency 
than funding that comes in stops and starts. We certainly 
encourage you to do whatever you can to get a reauthorization 
as quickly as possible. The continuing resolutions are, 
frankly, kind of hurting us significantly, both at the State 
and local levels.
    Many of the projects that our regional agencies, our local 
agencies are implementing are funded by a variety of funding 
streams. It is very rare these days to see a project that is 
funded by only one funding stream. I wish that were not the 
case because it would certainly make all our lives more 
palatable. But at the Federal level, you can have several 
different Federal programs funding the same project on top of 
several State programs, on top of several regional and local 
programs. It makes trying to chase those dollars and administer 
those funds increasingly expensive and inefficient. One of the 
things we really have to do is get on top of it.
    One of the things that we are kind of struggling with is--I 
think that Congressmember Brown mentioned the Federal Railroad 
Administration not being able to get the funding out to 
projects. There is an opportunity, I think, for the various 
Federal agencies involved to kind of work more closely together 
and not have to recreate the rules. I think one of the problems 
we are seeing, particularly with the Federal Railroad 
Administration, is they are struggling to create the processes 
that the Federal Highway Administration or the Federal Transit 
Administration already have in place. So let us try to break 
down some of those silos.
    We recognize at the State level we need to break down some 
of those same silos here. Over the years, what we have done in 
transportation is put band aid on band aid on band aid to try 
to deal with issues as they come up. It has gotten so bad that 
now the blob is so full of band aids, you cannot see what is 
underneath. Perhaps the budget issues that we have confronting 
us will give us a unique and unprecedented opportunity to kind 
of close our eyes and pull the band aids off and come up with a 
way that we can really ensure and reward efficiency and 
streamline project delivery.
    We need to have a system that does not discourage 
investment in maintenance and operation. One of the 
shortcomings from my perspective at the Federal level--excuse 
me--at the State level is we spend a lot of time getting 
projects built, funding the projects to get them built, and we 
do not provide adequate recognition of the ongoing costs of 
maintenance and operation. That is one of the benefits of 
public/private partnerships, I think, as the way to be able to 
demonstrate that managing a project through its life cycle, 
funding a project through its life cycle will result in 
improved efficiencies. I think anything that you can do to kind 
of reward that behavior would be of benefit.
    We have talked about goods movement. We absolutely need to 
have a goods movement strategy that works better nationally 
because that is a key problem for us.
    The next authorization has the opportunity to streamline 
project delivery. We appreciate Chairman Mica's commitment to 
speeding up the time it takes to deliver Federal projects. 
Again, I think that we have an opportunity to do that by kind 
of breaking down those silos between the various Federal 
agencies. Extended processing time for environmental 
clearances, Federal permits and reviews adds to the cost of 
projects and delay mobility. We need to try to get more of 
those reviews and permits issued on a concurrent basis.
    California, I would like to point out, is the only State to 
have fully implemented the NEPA delegation pilot program, and 
that pilot program has saved us years in delivering projects. 
We would like to see that pilot program made permanent so that 
we can continue to achieve those benefits for Californians and 
get the projects out more quickly.
    We also would like to work to develop programmatic advanced 
mitigation for natural resource impacts, a more corridor-based 
approach, rather than the kind of project-specific mitigation 
strategies that we have had. The opportunity to do that 
mitigation banking.
    Thank you very much for your attention, and if there is 
anything I can do to help in this effort, please let me know. 
Thanks.
    [The prepared statement of Ms. McKim follows:]

    [GRAPHIC] [TIFF OMITTED] T5228.014
    
    [GRAPHIC] [TIFF OMITTED] T5228.015
    
    [GRAPHIC] [TIFF OMITTED] T5228.016
    
    [GRAPHIC] [TIFF OMITTED] T5228.017
    
    [GRAPHIC] [TIFF OMITTED] T5228.018
    
    Senator Boxer. Oh, there will be. We thank you very much.
    Ms. Kathryn Phillips, Director, California Transportation 
and Air Initiative, Environmental Defense Fund. Welcome.

      STATEMENT OF KATHRYN PHILLIPS, DIRECTOR, CALIFORNIA 
 TRANSPORTATION AND AIR INITIATIVE, ENVIRONMENTAL DEFENSE FUND

    Ms. Phillips. Thank you. Thank you for inviting me to this. 
Thank you for holding this in California. Thank you for making 
such an effort to make it a bipartisan, bicameral effort. I 
think that that is extraordinarily important especially today.
    I want to note that I am representing Environmental Defense 
Fund and speaking for Environmental Defense Fund, but we are 
also a member of Transportation for America, which is a 
coalition of more than 400 organizations dedicated to 
transportation system improvements and to bringing our system 
up to a 21st century standard. So while my comments do not 
necessarily reflect everything that every member would believe 
in, I think you would find that there is an awful lot of 
consistency with what I say. But I am not speaking for T4 
today, but there are a number of T4 members in the audience.
    I want to share a few thoughts regarding freight 
transportation policy and also talk a little bit about the 
National Environmental Policy Act.
    But before I do that, I also wanted to make you aware that 
aside from my professional interests that informs my testimony, 
I am also informed by having grown up in a car-dependent 
Southern California town with a father who was a long distance 
truck driver and a mother who did not have a driver's license. 
So I understood very early on that a reliable freight 
transportation system is essential to the economy--it was 
certainly essential to our household economy--and that the 
availability of good public transit can make or break access to 
every sort of opportunity. It was the way I got to school.
    So on to freight. As has already been mentioned, freight is 
essential to our economy, so I will not belabor that. But I 
will note that the Port of Los Angeles alone provides about a 
million jobs in the Southern California region and 3 million 
jobs nationally. So if you take that and you just multiply it 
across the country where we have rail yards, ports, hubs, 
corridors, trucking distribution centers, so on and so forth 
and logistics, you will see how important freight is to the 
economy.
    But it also comes with some heavy environmental costs. It 
produces about half the Nation's smog-forming nitrogen 
pollution and more than a third of the fine particulate matter 
pollution. It is the leading source of toxic diesel soot and it 
is one of the fastest growing sources of greenhouse gas 
emissions.
    I want to also emphasize it is not just a California 
problem. It is something that we see all over the country.
    Even as the freight system drives the economy, its 
pollution saps the economy. There has already been a mention of 
some of the costs. Economists estimate that in Southern 
California conservatively not meeting Federal ambient air 
quality standards costs about $22 billion just in the L.A. 
Basin. In the San Joaquin Valley, it is about $6 billion 
annually. Can you imagine? You add that up and that is more 
than California's current budget deficit. If we had that money 
just for 1 year, what would that do? So it is very essential 
that we cleanup the air pollution. In this basin, freight 
system emissions linked to the Port of Long Beach and Los 
Angeles represent the largest single fixed source of air 
pollution.
    Meanwhile, demand is growing, and it is overwhelming the 
freight system. Reliability, especially in urban hubs, is 
uneven at best, nonexistent at worst, and studies show that 
freight users cite reliability as a key attribute to their 
transportation choices, sometimes more important than speed.
    They also--and this is I think really important--recognize 
the need to reduce the system's environmental impacts. We have 
brought together members of environmental justice, mainstream 
environmental groups, freight system operators, freight system 
users, and we are all in agreement that you need to do 
something to reduce freight's environmental impacts to ensure 
that you can continue to operate freight without any kind of 
community demands for stopping freight activity.
    So our sense is that if we simultaneously focus on 
simultaneously modernizing freight and reducing its 
environmental impacts, we are going to have a win-win 
situation. We have seen some of that happen at the Port of Long 
Beach and L.A. where they have been able to dramatically--they 
have come up with a really aggressive Clean Air Action Plan. 
They have been already dramatically cut ports emissions, and 
they are still looking to the future to do other port emission 
reductions.
    Now, the Federal Government clearly cannot pay for 
everything and solve all of these problems of needed 
improvements in the freight system alone. However, that money 
that we do spend, that the Government spends, it can invest in 
the freight system smarter and help ensure that national goals 
for the economy and the environment are met through the freight 
system because it both costs money if we do not address both 
things simultaneously.
    I have provided some written testimony that lists a lot of 
specific things, but I just want to mention a couple of them.
    One is if within the bill----
    Senator Boxer. You need to summarize really fast.
    Ms. Phillips. If within the bill we define project 
eligibility for the Highway Trust Fund spending in a way that 
emphasizes system performance outcomes, then we will be in a 
better place.
    I want to very quickly just talk about NEPA.
    Senator Boxer. Your time has run out. What do you want to 
tell us? What are the top three things?
    Ms. Phillips. The top three things on NEPA is it is 
important to remember it is a coordinating tool. It is not the 
law. It is the coordinating tool. That is really important, and 
when it is applied properly, it brings all the community 
interests and all the planning interests together early.
    Second, few people are interested in delaying good 
transportation projects that simultaneously provide that better 
system and the better environmental outcome.
    Third, while some people have suggested that removing 
environmental review requirements or scaling back the 
requirements will significantly hasten project completion, this 
is not borne out by the limited research.
    Really what is needed is exactly the kind of thing that has 
already been raised earlier, and that is, for agencies to be 
brought in as early as possible in the planning process, the 
community to be brought in as early as possible. Then we do not 
encounter the kinds of conflicts in the end.
    Thank you.
    [The prepared statement of Ms. Phillips follows:]

    [GRAPHIC] [TIFF OMITTED] T5228.019
    
    [GRAPHIC] [TIFF OMITTED] T5228.020
    
    [GRAPHIC] [TIFF OMITTED] T5228.021
    
    [GRAPHIC] [TIFF OMITTED] T5228.022
    
    [GRAPHIC] [TIFF OMITTED] T5228.023
    
    [GRAPHIC] [TIFF OMITTED] T5228.024
    
    [GRAPHIC] [TIFF OMITTED] T5228.025
    
    [GRAPHIC] [TIFF OMITTED] T5228.026
    
    [GRAPHIC] [TIFF OMITTED] T5228.027
    
    Senator Boxer. Thank you so very much.
    Next, Mr. Will Kempton, CEO, Orange County Transportation 
Authority, who has been so helpful to me personally over the 
years. So we welcome you.

 STATEMENT OF WILL KEMPTON, CEO, ORANGE COUNTY TRANSPORTATION 
                           AUTHORITY

    Mr. Kempton. Thank you, Senator.
    Chair Boxer, Mr. Chairman, members, it is a pleasure to be 
here. I am Will Kempton. I am wearing two hats today. I am the 
chief executive officer of the Orange County Transportation 
Authority, but I am also chair of Mobility 121, which is a 
regional coalition of business and transportation agencies that 
support a common transportation agenda here in Southern 
California.
    Let me just say at the outset we know you have a difficult 
task. I think you will hear from my colleagues here today 
understanding that. You will have to balance expectations with 
the fiscal facts of life, and that is a tough task in anybody's 
book.
    I will say at the outset that we do support early action on 
a 6-year bill and immediate extension of an authorization 
through the end of this fiscal year. We are happy to know that 
both chairs are in concert on that point. It is going to 
maintain current programmatic levels through September. It is 
going to provide some certainty, and when you are managing a 
capital program, you must have that certainty, as the Director 
of Transportation indicated.
    So as Mr. Shuster said, you are faced with doing more with 
less, but I think there are some opportunities in this process 
as well. We see three specific opportunities: a way to increase 
leverage, a way to be more innovative, and certainly some 
reforms.
    Self-help counties, the counties in California that raise 
their own local sales tax, pay for transportation, have raised 
billions of dollars for transportation. That is an example of 
leverage. Our 6-year plan that we have provided you copies with 
in the testimony costs about $3.7 billion, but 70 percent of 
those funds are coming from the local level.
    Innovation. You have heard about expanding and 
institutionalizing TIFIA. We agree with the specifics that 
Mayor Villaraigosa outlined. The 30/10 concept, Build America 
bonds, GARVEE bonds, innovative financing will allow you to 
stretch dollars.
    Now, reform. I want to talk a little bit more specifically 
about reform. We have an initiative known as the Breaking Down 
Barriers initiative. It is in concert with Administrator 
Mendez' Every Day Counts initiative, with the chair's 437 Plan, 
consistent with the President's executive order, and with the 
House resolution 72, and we are coordinating with the 
environmental community on that plan because we do not want 
this proposal to eliminate or minimize environmental 
protections. So we will be working with State and Federal 
environmental groups to make sure that that is accomplished.
    We have about 2 dozen specific changes which we are going 
to be making available to you all in about 30 days as we 
finalize those changes, but let me give you some examples.
    First of all--you have already heard about this--extending 
and expanding the NEPA delegation. Five States granted that 
authority under SAFETEA-LU. Only California took advantage of 
it. As Ms. McKim indicated, time savings of 10 to 14 months per 
project. We have quite a database of projects that have been 
approved under this process here in California.
    Do not let the planning process delay project 
implementation, as it did during the American Recovery and 
Reinvestment Act. Why could we not get money out more quickly? 
Because we had to go back through the Federal process to 
qualify projects for those dollars. There are ways that we can 
fix that and we will recommend those to you.
    Compress and overlap the sequential activities. If you look 
at a bar chart that shows design, environmental review, design, 
right-of-way, et cetera, those activities can be overlapped to 
save time. We want to employ a prompt action provision. We are 
working with the environmental community on this, but some 
defined requirements for project-level reviews. If you can sign 
a partnership agreement between the regulatory agencies and the 
sponsoring agency, you can waive that requirement because in 
that agreement you will agree to schedule and other activities.
    Practical design, doing things a little bit cheaper. It is 
not so much an emphasis on standards.
    Extend the pre-award spending authority that exists on the 
transit side to the highway side so that you can actually begin 
activities sooner.
    These are all activities that can be done to improve 
project delivery, to get jobs out faster. The emphasis of our 
role is breaking down barriers so we can create jobs more 
quickly.
    Madam Chair, I am happy to answer any questions at the 
appropriate time.
    [The prepared statement of Mr. Kempton follows:]

    [GRAPHIC] [TIFF OMITTED] T5228.028
    
    [GRAPHIC] [TIFF OMITTED] T5228.029
    
    [GRAPHIC] [TIFF OMITTED] T5228.030
    
    [GRAPHIC] [TIFF OMITTED] T5228.031
    
    [GRAPHIC] [TIFF OMITTED] T5228.032
    
    [GRAPHIC] [TIFF OMITTED] T5228.033
    
    [GRAPHIC] [TIFF OMITTED] T5228.034
    
    [GRAPHIC] [TIFF OMITTED] T5228.035
    
    [GRAPHIC] [TIFF OMITTED] T5228.036
    
    [GRAPHIC] [TIFF OMITTED] T5228.037
    
    Senator Boxer. Thank you so much, Mr. Kempton.
    Next we are so pleased to welcome Steve Heminger, executive 
director of the Metropolitan Transportation Commission. 
Welcome, Steve.

STATEMENT OF STEVE HEMINGER, EXECUTIVE DIRECTOR, METROPOLILTAN 
                   TRANSPORTATION COMMISSION

    Mr. Heminger. Thank you, Madam Chair. It is wonderful to be 
surrounded by all these Southern Californians.
    [Laughter.]
    Mr. Heminger. I am also wearing two hats, as Will is, today 
because, as you know, I also served and was privileged to serve 
as a member of the National Surface Transportation Policy and 
Revenue Study Commission which was chartered by Congress to 
give you some advice on this subject a few years ago. I think 
our advice is still timely and I wanted to briefly summarize 
that report in terms of three R's like we learned in school. 
The first is reform. The second is restructuring, and the third 
is reinvestment.
    I do strongly believe still that what we need in our 
Federal transportation program is a comprehensive reform. It is 
not a reauthorization. It is a new beginning, perhaps not a 
blank of sheet of paper because you have heard today there are 
several programs that are worth building on, but I think it is 
time for an entirely fresh look.
    Let me mention two examples. One of them is how we select 
projects. We still have a system that pretty much measures in 
terms of how many projects did we build, how much steel did we 
acquire, how much asphalt did we lay. What we really need to be 
looking at is outcomes. How much delay did we reduce? How much 
economic growth did we provoke? How much environmental benefit 
did we provide? hat is the shift we need to make.
    Second, in terms of project delivery, I could not agree 
more with the things that Will has said. The Minneapolis bridge 
that I know Chairman Mica has used constantly, a project that 
took 13 months instead of the typical 13 years, which is the 
average for the Federal Highway Administration. We do not have 
a process that is stopping bad projects. We have a process that 
is making good projects that we end up building, cost more, and 
take too long.
    An example in the Bay Area. We had a bridge, a new 
interstate bridge, the Benicia Crossing, Senator. We moved that 
bridge three times in the design process because the different 
Federal agencies could not agree where they wanted it. That is, 
in my opinion, where the nub of the problem is. It is not NEPA. 
It is not CECWO. It is the permitting agencies, and they need 
to get on the same page. I think in this authorization, you 
really need to read them the riot act.
    Second, restructuring. I think you were aware that our 
report I think surprisingly found that there are 108 separate 
program categories in the surface transportation law, and I 
think it is fair to say that if you have 100 priorities, you 
really do not have any at all. Our recommendation was to 
consolidate down to 10 programs. The President's proposal, 
released a few days ago, consolidates. I certainly hope you 
will head in that direction.
    My testimony covers what I would consider the holy trinity. 
In terms of my three favorite recommendations, one would be a 
program focused on rebuilding America, on fixing the 
infrastructure we have built, a second on global 
competitiveness, on goods movement and freight, and a third on 
metropolitan mobility which would focus on the economic engines 
that drive this country.
    Finally on reinvestment, this is where we really are in a 
pickle. As you know, the main funding source for this program 
is a user fee, but for some reason we called it a gas tax I 
guess just to make people mad about it. So we have taken a fee 
and called it a tax. Now, it is an excise tax which means that 
if you do not adjust the rate, inflation and fuel efficiency 
gives everybody a tax cut every year, and that is what has been 
happening. But none of you get credit for the tax cut. All we 
do is have less money to spend on infrastructure. So it is the 
craziest darned system that you could think of.
    The level of that investment that we have in the next bill 
is obviously one of your most important policy decisions. I am 
not going to sit here and lecture you or suggest to you what 
the right number is. Our policy commission did recommend a 
significantly higher funding level, and I think the case that 
we made for it is still strong.
    But what is undoubtedly true is that we get the 
transportation system that we pay for, and we are not paying 
much for it now and it shows.
    So let me conclude, if I could, as the Northern Californian 
maybe with a Hollywood reference. I would like to go back to 
the introductory remarks, and I think you both mentioned that 
you were sitting together at the State of the Union. I could 
not help think about the ending of Casa Blanca, you know, this 
is the beginning of a beautiful friendship. I certainly hope 
you write us a beautiful bill.
    Thanks very much.
    [The prepared statement of Mr. Heminger follows:]

    [GRAPHIC] [TIFF OMITTED] T5228.038
    
    [GRAPHIC] [TIFF OMITTED] T5228.039
    
    [GRAPHIC] [TIFF OMITTED] T5228.040
    
    [GRAPHIC] [TIFF OMITTED] T5228.041
    
    [GRAPHIC] [TIFF OMITTED] T5228.042
    
    [GRAPHIC] [TIFF OMITTED] T5228.043
    
    [GRAPHIC] [TIFF OMITTED] T5228.044
    
    [GRAPHIC] [TIFF OMITTED] T5228.045
    
    [GRAPHIC] [TIFF OMITTED] T5228.046
    
    [GRAPHIC] [TIFF OMITTED] T5228.047
    
    [GRAPHIC] [TIFF OMITTED] T5228.048
    
    [GRAPHIC] [TIFF OMITTED] T5228.049
    
    [GRAPHIC] [TIFF OMITTED] T5228.050
    
    Senator Boxer. I wish I looked like Lauren Bacall too.
    [Laughter.]
    Senator Boxer. You cannot always get what you want.
    OK. Our last speaker--and certainly not least--is Ms. Anne 
Mayer, executive director, Riverside County Transportation 
Commission.
    For the benefit of our visitors, we have what we call an 
inland empire, and this is what happens. They get the results 
of--you know, we get the goods coming into Los Angeles and Long 
Beach and they go through the country through the inland 
empire. Now that my home is in Riverside County, I see the 
results of what that means. We have huge trucks beating up 
Interstate 10. The smog is fierce. It is really tough.
    I am really glad you are here because we sometimes overlook 
the inland empire, but no more. So we welcome you, Ms. Mayer.

 STATEMENT OF ANNE MAYER, EXECUTIVE DIRECTOR, RIVERSIDE COUNTY 
                   TRANSPORTATION COMMISSION

    Ms. Mayer. Thank you very much. That was quite a welcome, 
Senator Boxer. I appreciate your comments about the inland 
empire.
    Chairman Mica and members of the committee, we certainly 
appreciate the opportunity to join you today.
    I am Anne Mayer, the executive director of the Riverside 
County Transportation Commission, and like some of the others, 
I am also wearing two hats today. I am the chair of the Self-
Help Counties Coalition in California, representing the 19 
counties who have voter-approved sales tax measures to fund 
transportation programs.
    We had a lot of conversation today about TIFIA, and I will 
sound a little bit like a broken record, but I think this issue 
is so very, very important it bears repeated emphasis. For 
agencies like mine and others throughout the country, who have 
projects ready to go and who have our own revenue streams, a 
very simple message. expand and enhance the TIFIA program now. 
This program is far too limited for the massive amount of jobs 
that can be created and the mobility goals that can be 
achieved.
    A couple of specific recommendations. The first one is to 
expand the size of the TIFIA program immediately. It has a 
tremendous return. You have heard discussions today. For every 
dollar that is invested, you can get 10 times that in return in 
leverage of locally sponsored funding.
    Also, allow up to 50 percent of the project costs to be 
covered by TIFIA, including 100 percent of the preconstruction 
costs. Raising this cap provides flexibility for agencies to 
finance large projects.
    Third, ensure that TIFIA loans are made based on 
creditworthiness and on the project's contribution to regional 
and national mobility systems. Southern California's 
transportation network is extremely diverse and complex. Yet, 
each piece is dependent on the other, and together all modes 
function as a system that keeps our region's and Nation's 
economy moving. TIFIA should be responsible to all of them. 
While San Bernardino may need a truck lane, while Los Angeles 
may need a subway, San Diego needs a border crossing, Riverside 
needs a major highway improvement, if one of these projects 
does not happen, our whole system fails, and when Southern 
California fails, the rest of the Nation fails. TIFIA cannot 
prefer one mode over another and must remain true to Congress' 
original intent: a financial tool based on creditworthiness for 
projects with major impacts on regional and national mobility.
    The final recommendation for TIFIA is to allow TIFIA 
applications to pay some or all of the credit subsidy. Jobs are 
delayed when creditworthy projects--creditworthy and shelf-
ready projects--are rejected from TIFIA because the program 
budget is too small. Self-help counties like Riverside have 
revenue streams that can supply the credit subsidy for 
otherwise worth projects.
    I believe all of these reforms would have broad support and 
benefit countless projects, but there is a very real example 
right here next to Los Angeles in Riverside County that I would 
like to highlight.
    The State Route 91 Corridor Improvement Project is a $1.3 
billion extension of the Orange County 91 express lanes through 
one of Southern California's most notorious corridors. With a 
TIFIA loan, using design, build, construction, this project can 
go to construction next year, putting those workers Mr. Hunter 
talked about back to work again. 18,000 jobs can be created. $2 
billion worth of economic output can be generated for 
California. We could save millions of gallons of gasoline and 
save commuters time. All of these can be achieved with a 
minimal Federal investment in a TIFIA partnership. I call that 
a good buy, but when a project like this will need to sit on a 
shelf because only four or five projects like it will be 
competitive in a program with probably a good three dozen 
applicants in a TIFIA round, that is certainly not a benefit 
for any of us.
    This issue is important, not only to those of us in the 
transportation world, but also to those in the communities we 
serve. Today, the Riverside Press Enterprise had significant 
coverage on TIFIA on the 91 project, an editorial, an op-ed 
piece written in a bipartisan fashion from Assemblyman Jeff 
Miller, as well as Assemblywoman Bonnie Lowenthal. We can see a 
great deal of bipartisan focus on getting these jobs, getting 
people back to work as soon as possible.
    Another issue that I would like to briefly mention is the 
issue of goods movement. We cannot let that go unnoticed. I 
would like to highlight H.R. 526 by Congressman Ken Calvert. 
This bill is also known as the ON TIME Act and provides a 
sensible means of providing needed funding for goods movement 
projects. You talked a lot today about needing a national 
freight policy and developing a goods movement program. This 
bill, as submitted by Congressman Calvert, and other bills like 
it by many other Members, have gone to the wayside. It is 
important that a bill of this type move forward so we can 
address our goods movement challenges throughout the county.
    In closing, thank you very much for conducting this hearing 
in Southern California, and I appreciate your leadership in 
addressing transportation policy.
    Thank you.
    [The prepared statement of Ms. Mayer follows:]

    [GRAPHIC] [TIFF OMITTED] T5228.051
    
    [GRAPHIC] [TIFF OMITTED] T5228.052
    
    [GRAPHIC] [TIFF OMITTED] T5228.053
    
    [GRAPHIC] [TIFF OMITTED] T5228.054
    
    [GRAPHIC] [TIFF OMITTED] T5228.055
    
    [GRAPHIC] [TIFF OMITTED] T5228.056
    
    [GRAPHIC] [TIFF OMITTED] T5228.057
    
    [GRAPHIC] [TIFF OMITTED] T5228.058
    
    [GRAPHIC] [TIFF OMITTED] T5228.059
    
    [GRAPHIC] [TIFF OMITTED] T5228.060
    
    [GRAPHIC] [TIFF OMITTED] T5228.061
    
    [GRAPHIC] [TIFF OMITTED] T5228.062
    
    Senator Boxer. Thank you so much.
    What we are going to do now is I have a comment and a 
question. I only have one question and one comment. Then I am 
going to turn the gavel back to Chairman Mica to conclude our 
hearing. We have about an hour to question the panel, which is 
good.
    So my comment is, first of all, I am so proud of every 
witness here. I just have to say you just make me so proud to 
represent this great State. The leadership that has come from 
this panel, believe me, is noticed.
    I do not think anyone disagrees with this, but I want to 
sum up my feeling about this opportunity we have to expand 
TIFIA. Frankly, I think, Mayor, your number is way too modest a 
number because if we are going to do this on a national scale, 
we have to ramp it up dramatically. Chairman Mica and I were 
discussing this.
    I want to particularly address this to my Republican 
colleagues who are here. The beauty of TIFIA is the projects 
are selected by the local people. They are the ones that say, 
we need this and we are putting our money behind our ideas. Or 
in some cases, it will be the private sector that says, we are 
ready to build this, we need to get a loan to do it. You just 
heard from our Riverside County witness, Ms. Mayer, about this. 
So the beauty of TIFIA is it is not Washington saying what 
ought to be done. It is the local people coming to us with the 
resources.
    As I view the next bill, as we look at all the problems 
that we face, I thought, Steve, you expressed it very well on 
how it is a bizarre situation with our revenues.
    I will give you another example. More and more of us are 
driving hybrid cars, electric cars. We are not paying any gas 
tax. We are paying nothing, some of us, because we never go to 
the gas station or we rarely go. It is not right.
    We have to figure out ways. I do not have the answers. I 
have ideas, but every one of them is controversial because it 
is a new idea of a user fee. But we are going to try it.
    But let us be honest here. In complete candor, the best 
thing is for us to leverage the dollars we have because that 
does not fend off any protests or problems. The TIFIA program 
is so underfunded. So I am looking at this and I do not think 
there is any disagreement, is there, on the panel, that this 
TIFIA program is something we ought to work on?
    So my comment is I am going to call on all of you as we 
rewrite this law. I am very excited about it.
    Again, I want to thank all of you who came to me on the 30/
10 because without that, I would not have focused so much on 
it.
    The only question I have to Ms. McKim is this because the 
chairman and I want to know a little bit more about the NEPA 
delegation pilot program. I am assuming what we did in SAFETEA-
LU is say that we would have a pilot program so that the States 
could carry out the goals of NEPA. Is that correct? Could you 
tell us exactly how it worked?
    Ms. McKim. The NEPA delegation gives Caltrans for the State 
of California the approval authority that previously rested at 
FHWA. One of the other speakers mentioned the CECWO program 
here in California is extremely stringent already. So we 
already have a lot of built-in protections. So what it does is 
eliminates a duplicate process and enables us to have the 
approval authority here. FHWA does periodic audits to make sure 
that we are not ignoring the key provisions. So that is what is 
resulting----
    Senator Boxer. OK. So just to sum that up, Mr. Chairman, we 
have something that we tried here in California--they all seem 
to think it is good--that said as long as you carry out the 
goals of NEPA, there is no point in having all these agencies 
coming in. It seems to me in our bill we ought to look at that 
as long as the State protections are strong because we do not 
want to give it to a State that has absolutely no environmental 
protections. But anyway, I think this is another area where we 
could speed things up.
    Anyway, I want to thank you from the bottom of my heart and 
I will turn the gavel back to you.
    Mr. Mica [presiding]. Well, thank you.
    What we will do is hear from members. I have maybe a quick 
comment and then a quick question or two.
    I think we have heard some great ideas. We need to take 
them back. I have offered to buy the beer and pizza for the 
members to sit down. Actually I have expanded that to diet Coke 
too or Pepsi, whatever preference--but sit down and take this 
and try to----
    Senator Boxer. You are in California. What about a fruit 
shake?
    [Laughter.]
    Mr. Mica. If I replied to that the way my brother-in-law 
who lives near San Jose refers to fruitcakes in California----
    Senator Boxer. No, that was not what I meant at all.
    [Laughter.]
    Senator Boxer. I said a fruit shake.
    Mr. Mica. OK. I am sorry.
    Senator Boxer. Get it straight.
    Mr. Mica. I did not say it.
    Senator Boxer. Yes, you did.
    Mr. Mica. We will have that fruit shake.
    Senator Boxer. Thank you.
    Mr. Mica. Actually, I will tell you I have been most 
impressed both in Fresno where we were yesterday and today with 
the quality of the comments and the positive manner in which 
everybody has approached our important responsibility here.
    First, I have to take a little liberty. You do not mind if 
I ask the mayor if he swears to tell the whole truth and 
nothing but the truth. You do, do you not?
    Mr. Villaraigosa. We do.
    Mr. Mica. Oh, good. Then I have one quick question for you. 
You will continue to help me try to bring fixed transit into 
the Los Angeles Airport.
    Mr. Villaraigosa. I actually was going to read that in my 
comments, but you told me not to read. But yes.
    Mr. Mica. He said yes.
    Mr. Villaraigosa. Part of Measure R does include connecting 
the airport with the Green Line. In addition to that, Ms. Gina 
Marie Lindsay and our airport commissioner are looking at what 
we can do to address the people mover issue that you raised 
yesterday. Yes, I am going to go to Miami to see Miami Airport 
as well.
    Mr. Mica. I must apologize to you publicly because I do 
give him a hard time every time I see him on that issue. But I 
think it is important. We have 68 million people landing there. 
It is one of the most important aviation centers in the world, 
if not the United States, and we have to make certain it has 
the most modern transportation connections. I pledge to work 
with you on that. That is out of order, but I wanted to say 
that.
    Then let me turn to Ms. Phillips and also Ms. McKim. On the 
environmental, now Ms. Phillips, you said something about 
removing or repealing or cutting back environmental protections 
that we have and a lot of people have worked hard for and feel 
so committed to, which I think is important. But do you not 
think there is room, one, for, say, certification similar to 
maybe we have with a pilot project where you have environmental 
laws that are as strong, if not stronger than the Federal 
Government and not necessarily going back maybe 
precertification on the environmental front? Not every State 
has that or locale. But where that exists, not sort of 
reinventing the wheel and going back on the Federal process. 
Could you agree to something like that?
    Ms. Phillips. Yes.
    Mr. Mica. No lesser standard.
    Ms. Phillips. Yes, no lesser standard. I will tell you that 
when Caltrans was having to do the State legislation to allow 
it to accept the delegation, we opposed but then we lost, which 
often happens. As Caltrans proceeded to implement that 
delegation, they made a really concerted effort at various 
points to reach out to us to make sure they were doing the 
right thing.
    Mr. Mica. Do you feel that has been satisfactory?
    Ms. Phillips. I do think they have satisfied it. So I think 
extending that program makes sense. I do not think you would 
want to weaken it at all, but I think extending. I think 
California has been able to demonstrate that it works.
    Mr. Mica. Well, again, the other thing too is we have done 
projects. For example, let me just close with this.
    The replacement of the bridge that collapsed between 
Minneapolis and St. Paul. I was on the floor with Mr. Oberstar 
the day that happened, and people were killed. There was this 
unsafe bridge that was built 40 years ago. We replaced that 
bridge in 437 days. I stood on the bridge 2 weeks before it 
opened and said if we could do this project, we could do other 
projects within the same footprint.
    Now, from an environmental standpoint too, what took place 
there is we--and from reconstructing the bridge--first, we put 
a safer bridge in. We did not have a safe bridge and people 
were killed. Forty years ago, they did not give a hoot about 
polluting the Mississippi River, mitigation, any of the 
environmental concerns that we have today. We actually 
replaced--and it would take 7 to 8 years, they told me, just to 
go through the normal process to get that new bridge in place. 
We replaced that bridge in the same footprint 7 to 8 years in 
advance. That means that we actually improved the quality of 
the Mississippi. We put in mitigation, environmental 
protections, and a safe bridge 7 to 8 years in advance.
    So there has got to be benefit to the environment to speed 
these things up again in the same footprint. I would hope that 
you would be willing to work with us to shorten the time, not 
to shorten the requirements or dilute them in any fashion. 
Would you do that?
    Ms. Phillips. Yes, because I think one of the things that 
we are very interested in is what Mr. Kempton has been talking 
about, and we have been working closely with him, a number of 
environmentalists. I think there is an opportunity here to have 
reasonable discussions and to come up with common sense 
solutions that still protect the environment and do not delay 
projects that are going to have long-term benefits.
    Mr. Mica. Well, thank you.
    Let me yield, if I may, to--let me see. We have Ms. Brown. 
We will go to Ms. Brown.
    Ms. Brown. Thank you very much.
    I guess I have a couple of questions because I am very 
interested in two things. I do not know whether or not we need 
to develop in the bill a one-stop superfund process to expedite 
projects, super projects. It seems like you all have done some 
of this and you are talking about it. I would like to know more 
about it. I am sure you are going to give us the information in 
writing.
    Mr. Mayor, I just returned from Salt Lake City, UT, and I 
was very impressed with their commuter rail. You know, it is 
just an hour and a half from here. I just left there 
yesterday--and how they are moving people and how 46 mayors up 
and down the coast that worked together on these projects and 
how they were able to expedite them in less than 3 years. So 
those are the kinds of programs that we are looking at, how can 
we expedite it and unify it. Other countries have done it, and 
we have to be able to do it so we can put people to work.
    I want more information about your 30/10 Plan also.
    Mr. Villaraigosa. Well, let me just say we have talked a 
lot about infrastructure--and that is important--and 
transportation and moving people and goods. The other very 
important and maybe the most important aspect of acceleration 
of these kinds of programs and leveraging Federal dollars are 
the jobs that they create, you know, when you are looking at 
nearly a million jobs, by the way, with just going to $375 
million.
    I just want to make it absolutely clear I used that number 
because I heard that was the number that there was a lot of 
discussion around. We would support a much larger program than 
that. Please understand that. I want to be clear about that.
    [Applause.]
    Mr. Villaraigosa. As you heard, on a bipartisan basis, both 
Chairman Knabe and I believe that some kind of transportation 
bond program makes sense as well.
    Finally, let me just say--30/10. What it was was an 
opportunity for us. Initially we were talking about L.A., and 
then we realized this has application--just in the county, 
there are 19 donor--what did you call them? Self-help counties 
just in California alone. Across the country, there are a 
number of localities that have taxed themselves this way that 
are putting their investments. So 30/10, which we called our 
initial proposal for L.A., is actually the template for the 
national program. We incentivized localities to put up their 
own money and we leveraged that.
    Senator Boxer. Do you understand now what it is, what 30/10 
is?
    Ms. Brown. No, I do not.
    Senator Boxer. She still does not quite get it.
    Mr. Mica. I do not either and that is going to be my 
question.
    Senator Boxer. Just go back to square one like when you 
explained it to me.
    Ms. Brown. I know all of you all understand it.
    Mr. Villaraigosa. Sure. Basically what the 30/10 Plan was--
with Measure R, we are generating $40 billion worth of revenue, 
tax revenue, over a 30-year period of time.
    Senator Boxer. Explain what the Measure R was.
    Mr. Villaraigosa. Measure R was the initiative to tax 
ourselves a half penny to expand our public transportation 
system, repair our roads and highways, street repair, $40 
billion generated with a half a penny over a 30-year period of 
time.
    The 30/10 plan was an opportunity for us that we said, how 
can we accelerate? Because what was happening--in fact, today 
driving here I was on the radio, and people want to know, well, 
when is the subway coming or when are you going to finish all 
of these projects that you promised? My response is, ma'am, 
this was a half penny sales tax, not a 10 penny sales tax. So 
it is not going to be done in 15 years, but in 30 years.
    So we came up with a plan that says let us accelerate the 
public transit portion of this program by leveraging Federal 
dollars through a loan program or a bond program that would 
accelerate the projects. It would reduce the costs because, as 
you heard, the construction industry today has a 35 to 40 
percent unemployment rate, and because a lot of those projects 
would have been built 20 years from now or 125, you are 
building them in a 10-year period. So you are saving money 
there on both counts, one, because of the high unemployment 
rate. Projects are coming in about 25 percent less than they 
used to. So that was the idea, and that 30/10 Plan became the 
template for this.
    Senator Boxer. Representative Brown, basically what we are 
doing at the Federal level, Congressman and Congresswoman, is 
we are frontloading this program for very little cost, 
virtually nothing, $20 million for a half a billion dollar 
program, because you know that the people have voted this 
stream of revenue. Virtually no cost to us. So you leverage 
this by helping them get out there and start it now. It is a 
brilliant notion, if I might say.
    Ms. Brown. Let me ask a question. Are you familiar with the 
RIF loan program because we have $30 billion in that program 
for transit type projects?
    Mr. Villaraigosa. I am not familiar with that program.
    Ms. Brown. OK, so no one is familiar with it.
    Mr. Mica. It is rail programs and we have $35 billion in 
the fund.
    Ms. Brown. But that is a program that I would wonder how we 
can leverage it because it is rail but it is rail transit type 
programs. It is available to the city. It is low-interest.
    Part of the problem, people have told me, with the program 
is how long it takes to actually get it OKed.
    Mr. Villaraigosa. That is actually true for the TIFIA 
program as well, which is why I had some specific 
recommendations about things that we could change, you know, 
take it to 49 percent instead of 30 where I think it is 
currently, cut some of the bureaucratic obstacles to connecting 
multiple projects, that kind of a thing.
    Ms. Brown. One person mentioned to me like one agency OKed 
a study and then the other agency said, well, no I want the 
Army Corps to do it. So that does not make any sense. We need 
to streamline that process.
    Mr. Knabe. Well, a couple of things within the TIFIA 
process, even in allowing the Department of Transportation to 
do an up-front master credit agreement or a hedge loan kind of 
a situation for the bigger and larger projects would be a real 
time-saver. I mean, that is half the battle.
    Mr. Mica. A good suggestion.
    Let me yield now to the gentleman from Pennsylvania, Mr. 
Shuster.
    Mr. Shuster. Thank you, Mr. Chairman.
    I thank all of you for your testimony today. It is loud and 
clear that the TIFIA--we need to address that as we move 
forward with this transportation bill.
    Also, I need to point out especially to my Republican 
colleagues back in Washington that these jobs we are creating 
by building infrastructure are not public jobs. They are 
private industry jobs. A lot of times that gets lost on members 
on my side of the aisle when we say we are creating jobs. Too, 
the stimulus created a lot of public jobs, but private sector 
jobs that are good jobs and building the assets in this country 
are extremely important.
    Mr. Knabe, you mentioned smart Federal dollars, and I do 
not think you expanded on that. Can you tell me a little bit of 
what you are talking about?
    Mr. Knabe. Well, again, it was just basically a leverage 
point. We have stepped up to the plate three times, and we are 
saying the fact that--the mayor just mentioned it--we have an 
opportunity, one, to create the jobs, two, to do a much better 
job right now in the bid process because of the unemployment 
and other opportunities out there. It is smart Federal dollars 
because it is a very minimal expense to allow this to happen 
because, as I said, every time we go back to Washington, they 
say come back with a revenue source. We have come back. We have 
Measure R, a 30-year payback. So we have this opportunity to 
leverage those Federal dollars up front and pay you back. This 
is a deal. You are going to love this deal.
    [Laughter.]
    Mr. Knabe. But, I mean, it is an opportunity that we have 
said, look it. You know, we have done this three times, not 
just once, not just the first time, but three times in 3 
decades. It is a real inexpensive way for the Federal 
Government to be our partner, and that is what we want to be 
with you.
    Mr. Shuster. In followup with what Ms. Brown said about how 
do we--as Director McKim said about going to these different 
sources, it is time consuming. You are chasing dollars. I would 
like to hear specifically from the director and also from Mr. 
Kempton on his experience as the Director of Caltrans and now 
OTCA. I know you all have ideas and I would like to hear all 
your ideas, but if you could just briefly talk about what you 
see us putting into law to streamline that. What does it look 
like to you? That is really what we are looking here for. I do 
not want to put another layer of bureaucracy. I would like to 
collapse the bureaucracy and make it simpler. So if you could 
make a comment on that, and then, Mr. Kempton, if you would.
    Ms. McKim. Well, I think the idea of consolidating some of 
the programs and then borrowing what--one of the points that 
Steve Heminger mentioned in his review, refocusing on 
performance will be a key element.
    One of the things that FHWA is trying to do is partner with 
FRA. So it can be as simple as encouraging that partnership so 
that FRA does not recreate a bureaucracy. That is probably a 
bad word to use--so that they can use the same process that 
FHWA already has. FTA has different kinds of funding mechanisms 
except for the fact that their transit projects--they are very 
similar to highway and heavy rail projects. So there needs to 
be some consistency among the Federal programs in terms of how 
they approach their oversight and administration of projects.
    Mr. Shuster. Mr. Kempton.
    Mr. Kempton. Mr. Shuster, I would say the same thing. 
Consolidation and flexibility are the keys. We have innumerable 
scores of Federal programs, and I think you can make a judgment 
as to which programs are best to be left, but consolidation 
would be absolutely critical.
    Then the flexibility. There are sometimes so many 
restrictions that come with Federal dollars. One of our 
colleagues from San Diego likes to say that for 20 percent of 
the money, you get 80 percent of the rules. I think that ought 
to be looked at as well.
    Mr. Shuster. Thank you very much. Again, I would encourage 
all of you to submit your ideas because as we do this bill, it 
is going to take all of us.
    I would encourage Mr. Hunter. I appreciate you being here 
today. We have heard from labor across the country, especially 
the building trades, and we know you guys just want to build 
stuff. We need you in this working through this process to make 
sure that we are focused on getting the money out, building 
things, and you need to have a seat at the table. As we move 
this forward, let us make it about getting the money out, 
streamlining, doing more with less, and creating jobs for the 
folks in your labor union.
    Mr. Robbie Hunter. Absolutely. In Los Angeles, we did a 
bond with the school district, a $3 billion bond. You know, 
often when people are taxed, there is a dam built in the mud 
somewhere and no one sees it. We built those schools in the 
communities and when the taxpayers here--they renewed with 
three more bonds. We did $27 million worth of projects. The 
last 23 schools that came in saved so much money, they built 
three new schools with the savings because of the cost in 
construction. We absolutely should take advantage of that at 
this time.
    Mr. Shuster. Thank you. Thank you all very much for coming 
out today.
    I yield back.
    Mr. Mica. Thank you.
    I yield to Ms. Napolitano.
    Mrs. Napolitano. Thank you, Chairman Mica. I have a lot of 
comments, not necessarily questions. But just Ms. Mayer in 
Riverside talked about the pollution and all of that that is 
going through my district. I have roughly 50,000 trucks a day 
going through my district, 160 Union Pacific and BNSF railcars 
going through my district. Of that, 40 percent goes to the rest 
of the country. So before Chairman Mica became the chair, then 
Chairman Oberstar named it the ``corridor of national 
significance'' because it is critical to the on-time delivery 
of those goods to the rest of the Nation.
    Now, Mr. Kempton, you talked about the agencies. I co--
chair, if you will, along with the ranking member, the 
Subcommittee on Water and Power. There are 22 agencies that 
deal with water in Washington. So somehow can you tell us what 
you see--not now, maybe in writing to this committee and all of 
us. What do you see that can be consolidated that would help 
reduce the personnel handling, the different agencies handling, 
the different steps that you have to do both in terms of saving 
money, cost saving to the project managers, et cetera?
    But understand when we are sitting in committee and they 
come and give us reports, then you say, OK, what about the 
other side? There are other agencies that may have jurisdiction 
over that, and so then you have those big stumbling blocks that 
we do not look at because you know about them. We may not. So 
unless you point them out and suggest them to this committee, 
there is no way that we can do it.
    Do not forget we have budget cuts in Washington too. So 
those agencies that are going to be serving you are going to 
have reduced personnel to deal with it. So how do you tell us 
where we may be able to consolidate and be able to address that 
by recommending things that we with our legislation may be able 
to address? Don?
    Mr. Knabe. Every time you have a major project, there are 
always related projects to that major project. If you increase 
the eligibility to allow that under TIFIA, instead of having 
one project per loan, being able to have that project and the 
related projects in a consolidation for one application, that 
would save huge amounts of time.
    Mrs. Napolitano. If you would put that in writing, Don, 
because that is something that we need to look at.
    The other thing, Ms. Phillips, is how do we get the 
railroads to become an active--how do we incentivize railroads 
to become more proactive in helping fund some of things that 
they benefit from? I would like that in writing because my time 
is short. But those are things I would like to hear from you in 
writing for us.
    Supervisor Knabe, how long did it take for the 105 to be 
built? The incentive, the cost cut?
    Mr. Knabe. Well, I think the reason they named it the 
Century Freeway is because said it took 100 years.
    [Laughter.]
    Mr. Knabe. But in reality on footprint and design and 
redesign, it was close to 20 years, something like that. I 
mean, it was just absolutely outrageous.
    Mrs. Napolitano. But after Judge Ferguson lifted the 
injunction, it took about 18 months?
    Mr. Knabe. Yes.
    Mrs. Napolitano. Roughly. So that freeway was built.
    Mr. Knabe. Lawsuits, everything.
    Mrs. Napolitano. Correct.
    Mr. Knabe. Now it contains our Green Line too that Chairman 
Mica wants to go all the way to the airport.
    Mr. Villaraigosa. It will go all the way.
    Mr. Knabe. I heard the mayor.
    [Laughter.]
    Mrs. Napolitano. All right, guys.
    Mr. Hunter, one of the things that we know from looking at 
other projects and being abroad in some of the other countries, 
there are very few labor standards--building codes. That builds 
a lot of insecurity and danger to a lot of the populace. I want 
to be sure that those are built on time, right the first time. 
If I remember correctly, it is build it right the first time. 
You save money. You save time. Where we are earthquake prone, 
that is a must in our area, especially in California.
    The 30/10. How is that going to affect the revenue, as 
Senator Boxer was stating, that there will be less revenue 
because of the hybrids? How do we compensate for that? What do 
we look at? How do we not tax them but be able to make sure? 
They are using the roads. They are using out the highways. They 
are creating some of that traffic congestion that we talk 
about. So how do we look at being fair to the rest of the 
driving public that is paying for those highway improvements?
    Open new concepts. Within my area--I am running out of 
time--we have an organization, a company that is dealing with 
research and development with the Department of Defense to 
build a blimp and be able to take cargo from the Army, whatever 
Department of Defense's need is, to move it into inaccessible 
areas, in other words, inside the belly of a blimp. Why are we 
not looking at new innovative concepts that might bring relief 
to that which we are now facing?
    So, Madam Senator and Chairman Mica, there are a lot of 
things I would like to have the illustrious panel give to us 
as----
    Mr. Mica. We are going to allow that too. I will yield to 
Senator Boxer for a motion.
    Senator Boxer. Yes. I would ask that the record be kept 
open for 2 weeks so that our terrific witnesses here can get 
their comments in.
    Mr. Mica. Without objection, so ordered.
    I would also invite members of the public that want to 
submit recommendations. We could not get everybody up here 
obviously. We jammed the stage as it is. But if you have 
recommendations, the record will be kept open for 2 weeks. I 
would ask that you submit them to the Senator or any of the 
members who are in attendance or on the respective committees.
    Let me yield now to the gentleman from California, Mr. 
Hunter.
    Mr. Duncan Hunter. Thank you, Mr. Chairman. I am new to 
this committee, ladies and gentlemen. So I have some basic 
questions. I hate to be the killjoy here, but what makes you 
think California can afford anything, even doing less with 
less? No one has talked about California's debt and what 
happens to these bonds and what happens to the cent and a half 
sales tax or half cent sales tax if that has to be 
reprioritized and restructured if there is a restructuring of 
California's debt obligations or if there is any kind of 
Federal assistance, which I do not think that would be 
forthcoming under this Congress. What would happen to any 
projects started? How would California pay for them? Anybody is 
welcome----
    Mr. Villaraigosa. Yes. I can respond to that.
    First of all, you are not a killjoy. That is an appropriate 
question.
    Measure R cannot be in any way--the revenues generated from 
Measure R cannot be appropriated by the State in any way. This 
was a taxpayer-approved half penny sales tax that the State of 
California has no jurisdiction, no ability to appropriate that 
money.
    Mr. Duncan Hunter. What I am asking, though, Mr. Mayor, is 
you are going to have to prioritize if California is unable to 
do what it does as a State for Los Angeles. You are going to 
have to reprioritize what is important to Los Angeles. You 
might have to reprioritize that money going into shelters for 
unemployed people or something else.
    Mr. Villaraigosa. It cannot be used for that purpose.
    Mr. Duncan Hunter. It is untouchable.
    Mr. Villaraigosa. Untouchable. In fact, in the actual 
measure, they identified the projects that you can actually 
spend this taxpayer revenue on. So it cannot be invaded by the 
State. You cannot even reprioritize it without a two-thirds 
vote, and then it can only be used for transportation.
    Mr. Knabe. I mean, the whole being, it required special 
legislation just to allow us to put it on the ballot because we 
had already maxed out our ability for a sales tax in Los 
Angeles County. So it is untouchable by the State.
    Now, the State has its other issues with transportation 
bonds statewide. You know, there is always that little caveat 
inside that says two-thirds vote of the legislature, we can put 
it toward our debt, you know, kind of thing that we have to 
deal with, but that is a separate issue. Within the confines of 
that legislation, of Measure R, it is strictly for Los Angeles 
County and strictly for prioritized transportation projects.
    Mr. Duncan Hunter. So let us say the worst case scenario is 
California has to restructure or do something with its debt 
obligations and they are helped out by the Feds in some way in 
that restructuring. You are saying that the local 
municipalities, if they do it your way, would be safe from the 
State----
    Mr. Knabe. Measure R dollars.
    Mr. Villaraigosa. If they wrote their initiative in the way 
that we did, yes.
    Mr. Duncan Hunter. The next question and last question to 
Mr. Kempton and anybody else who would like to answer. If you 
had to sum it up in basic speak for someone as simple as 
myself, if you had to talk about how much time and how much 
over budget as a percentage of an entire project in general 
that environmental regulations in California cause, what would 
that number be? Roughly. We will not hold you to it, except 
everything you say is on the record.
    [Laughter.]
    Mr. Kempton. Well, Mr. Hunter, we will just go with the 13 
years if you escalated that over 4 percent or something in 
terms of project costs, but I would stress it is not just 
environmental regulations. It is the delivery process in and of 
itself, and that is what we are trying to address with Breaking 
Down Barriers. So just take the 13 years that it takes to get a 
major project done, escalate the cost over those years, and 
that will give you a sense of the time impacts from a dollar 
perspective for projects. But again, it is not just 
environmental regulations. It is delivery processes as well.
    Mr. Knabe. Entitlements, everything. I mean, it is the 
whole piece. Just being able to do concurrent environmental 
reviews would save a humongous amount of time. Not changing the 
regulations, just being able to do concurrent reviews would be 
an incredible savings.
    Mr. Duncan Hunter. Thank you.
    Senator Boxer. Chairman Mica, I just wanted to say to 
Representative Hunter I am really glad that you posed this 
question because as I talk to my colleagues in Washington, this 
is so new and so different. It is a new way of thinking which 
is very important for our committee because we know the stress 
we are under in terms of revenues, and any new revenue source 
is going to be--some people have signed a pledge, no new 
revenue source. Other people say they are willing to look at 
it. But it is going to be a terrible argument.
    The beauty of this and the reason I am so happy you are 
here and you asked this question is this is a measure that the 
local people decided, and they went in the midst of a 
recession, as was stated, and said, we are willing to tax 
ourselves because we want these projects built. For us, because 
we know there is this revenue flow which--you asked your 
question. We know that no one can interfere with that revenue 
flow. For example, for a $20 million cost to us, they are able 
to get a loan of $500 million, and we know that money is coming 
behind it.
    So thank you very much for asking the question because if 
we are going to write a bill here that has a chance of passing, 
this is the type of program we are going to have to work on 
because we do not have to get any new Federal taxes. We can 
just deal with this and leverage. I think the centerpiece of 
our bill will be leveraging.
    Mr. Duncan Hunter. Thank you, Senator.
    Mr. Chairman, if I may. If you try to take the Chargers and 
put them in L.A., I will vote no on everything. I am just 
throwing that out there.
    [Laughter.]
    Mr. Shuster. Just a quick question on the vote for half a 
penny.
    Mr. Mica. Mr. Shuster?
    Mr. Shuster. I know in Orange County they did it and it 
passed by like 67 percent. What was the percentage?
    Mr. Knabe. Almost 68 percent.
    I mean, there are a lot of things on that ballot people 
have to go through and vote no on. They voted yes on that.
    But we realize how difficult your job is. Every time I get 
in an elevator in Washington, I see these little name tags, 
National Carburetor Association, National Christmas Tree 
Association, you know, National Glass Association, and they all 
have their little agenda. All that impacts when you are trying 
to put together all this legislation. So we appreciate all you 
do.
    Mr. Mica. Those are not even our constituents.
    Mr. Knabe. Exactly, right.
    Mr. Mica. Let me yield now--patiently waiting--to the 
gentlelady from California, Ms. Richardson.
    Ms. Richardson. Thank you, Mr. Chairman.
    For the sake of the accuracy of the record, I want to refer 
back to Ms. Phillips' testimony. In her written testimony, it 
says that while environmental reviews make it extensive, 
sometimes can be perceived to complete projects--in 2001, of 
all the highway projects that received Federal funds, only 3 
percent of those projects, accounting for only 9 percent of the 
funds, actually required an EIS.
    Further, her testimony says that neither Federal funds 
funding transportation projects have been eligible for 
categorical exclusions. Now, we have spent a lot of time 
talking about the I-35, but I think it is important, 
particularly for the public, that we are accurately telling the 
whole story. I-35 was the first categorical exclusion. Further, 
I-35 had full, 100 percent funding at the point when they 
began, obviously due to the tragedy of what occurred. So I 
think in addition to us talking about the NEPA/CECWO problems, 
we also need to consider this whole thing of better utilizing 
categorical exclusions as well.
    Further in her testimony she stated that project redesign 
is part of the problem, relocating businesses, project 
complexity, lack of funding for the project, local objections. 
The one I want to ask Ms. McKim, Kempton, or Heminger, whoever 
would like to respond--let us spend just a moment on the 
interagency communication problems because that is also 
something we can work on. We have spent a lot of time talking 
about NEPA and CECWO, but the interagency communication--or 
give us more specific details about the permit problems. Which 
agencies would really help us to better do this bill? So 
whoever would like to chime in.
    Mr. Heminger. Congresswoman, Steve Heminger just to start. 
I do think you are putting your finger on it. As I said in my 
remarks, I do not think the NEPA/CECWO issue is the big villain 
because, generally speaking, in big projects in California, we 
clear them through both. We run them simultaneously. I am sure 
it adds some time. But the permit question is the real issue. 
That is where a project can sit still for months while a permit 
is issued.
    Now, in the case of the Minneapolis bridge, I was up there 
during construction. That project manager had half of his 
permits in the first week. Now, that is probably an 
extraordinary case.
    But someone also on the panel mentioned that some of these 
agencies may be seeing cuts in their funding and their 
staffing. I think it would be a prudent expenditure of our 
transportation funds to make sure that does not happen, to have 
folks dedicated at those agencies to our programs to have 
clocks on them. If they do not meet the clock, the permit is 
approved or have some appellate process that if they do not 
approve it within a certain period of time, it is kicked up to 
some other level. There has got to be a reasonable way to get 
through this better. These are all people of good faith. There 
is no one in there who is trying to do a bad job, but there 
simply is not a priority in those agencies for speed and for 
consistency with many other Federal agencies that also act.
    Mr. Kempton. I would add to that, and I agree with what Mr. 
Heminger said. One of the recommendations in our Breaking Down 
Barriers initiative is, in fact, prompt action which would 
require a specific deadline for action by a permitting agency, 
and that is where a significant amount of the problem comes 
into play.
    But again, we are dealing, in most cases I think, with 
people who are concerned and want to do a good job. There are 
resources issues, and we need to take better advantage of a 
process that we have used here in California to a great 
advantage, and that is actually providing the resources 
agencies with staff, with consultants to be able to complete 
the required work so that it gets done more quickly. That is 
something that we can do and look to make more palatable as 
part of this process as well.
    I was asked at the Highway Subcommittee meeting last week 
if I could summarize in one word what the problem is and I said 
I could. It is trust. As we work more closely with these 
agencies and develop a greater amount of credibility, that 
trust factor will be less important.
    Ms. Richardson. To your knowledge, are there any inhibiting 
factors that would preclude us from doing a concurrent system? 
It seems like everyone--the panelists agree. OK.
    My next question has to do with existing right-of-ways. 
Yesterday Chairman Mica and I were in Fresno, and one of the 
things they talked about is some of these projects have to go 
through a whole other approval process even though they are 
building upon existing right-of-ways. Would there be any 
objection to us reconsidering maybe framing those regulations a 
little bit better if it is on an existing right-of-way? Ms. 
Phillips or Mr. Kempton?
    Then I have one last question.
    Ms. Phillips. I think the ultimate outcome is the 
performance and that is where we need to put the emphasis so 
that if there is a way to address the existing right-of-ways to 
ensure that you get cleaner air in the end, less water 
pollution, more protection of open space and wildlife, then 
there is room to negotiate and room to figure out improvements. 
I think the emphasis in all of the transportation bill funding 
needs to be on the outcome, on the performance.
    Ms. Richardson. No but, Ms. Phillips, I am asking a very 
specific question, and it was a big problem in Fresno. Let us 
say, for example, Highway 5. It is already a highway. If we are 
talking about a major resurfacing project or something that is 
on the existing right-of-way, there have been issues of 
completing that. Would there be a general objection to us 
reevaluating those regulations specifically if it has to do 
with an existing right-of-way?
    Ms. Phillips. The kind of example you are using--I do not 
see that there is an objection to that.
    Ms. Richardson. OK. Thank you.
    My last question, Mayor Villaraigosa and Supervisor Knabe. 
One of the things in the bill included projects of national 
significance. We are very grateful to the chairman and also 
Chairwoman Boxer for being here.
    Could you just allude very briefly why it is important that 
we continue that section in the bill?
    Mr. Villaraigosa. Well, I think it was mentioned. I mean, 
we move 44 percent of all the sea-borne goods through our 
ports. Our airport is the largest destination and arrival and 
entry airport in the United States of America. If we were a 
nation, this metropolitan area would be the 17th largest 
economy in the world. The gridlock here and the air quality is 
among the worst in the Nation. For all of those reasons and the 
fact that we have a dedicated funding source, this is a project 
of national significance.
    Mr. Knabe. I would just add, I mean, just not only Measure 
R but the whole issue of the Ports of Los Angeles and Long 
Beach, which are part of my district as well too. I sit on the 
Alameda Corridor Authority. That was a project that was built 
on time, on budget. But those trains go north. They do not turn 
left to go in the ocean. They turn right and go right out 
through your district and my district, and they are of national 
significance. We knew during the port strike a while back, a 
billion dollars a day of national economic impact to the United 
States of America. A billion dollars a day. That is a big 
number. So I think we have to be able to maintain those 
projects, and they are of national significance and they do 
deserve a little bit better treatment I think.
    Mr. Mica. I thank the gentlelady and the witnesses.
    Our last member. Again, we are so pleased with her service 
and her friendship over the years. I am pleased to recognize 
Ms. Harman.
    Ms. Harman. Thank you, Chairman Mica. I was sitting here 
thinking that you and I and Congresswoman Brown were all 
elected in the same year in another century when the world 
seemed a little simpler and safer than it does now.
    [Laughter.]
    Ms. Harman. I am going to leave it to you much younger 
colleagues to figure all this out.
    But I want to observe what an excellent hearing this is. 
All of the information has been substantive. There have been 
specific ideas put forward, as you requested, about improving 
TIFIA and other programs.
    That leads me to ask one question, mindful of your time and 
everyone else's time. But it is in relation to the issue I 
raised in my brief comments, and that has to do with P3, 
public/private partnerships. I do not think we had enough 
conversation about that.
    President Obama has been talking about the fact that the 
private sector is ``hording'' would be a tough word, but at 
least holding onto about $2 trillion in capital which is not 
being invested at least presently into worthy activities. 
Congressman Shuster pointed out that the jobs we are talking 
about here are private sector jobs. That is worth underscoring. 
Private sector jobs, not public jobs.
    My question is, do we not have an opportunity here to cause 
U.S. banks and others to part with some of that $2 trillion--I 
am sure we would take a small percentage--to leverage the 
Measure R revenues, which our taxpayers on an overwhelming 
bipartisan basis have volunteered, to build these private 
sector jobs? Is TIFIA a best way or the QTIP program which has 
to do with bonds or some new bond program, an additional way?
    But bottom line, should we not focus more on public/private 
partnerships as the way to get this done fast?
    Mr. Villaraigosa. Without question, Congressmember Harman. 
We have been meeting over the last 18 months as we put together 
the 30/10 Plan with investment banks, and very importantly, 
across the world, investment banks and public/private 
partnerships are working with government to build the 
infrastructure that they need and that we need here in the 
United States. I said it is a $2.2 trillion need. We were at 
Lazard in November, I believe, and they are very interested. So 
is J.P. Morgan. Almost all of the investment banks see the 
opportunity that comes with a public/private partnership, again 
leveraging local dollars with Federal dollars to move projects 
and accelerate them as we speak.
    Mr. Knabe. Well, I would only add that I think if you could 
within the surface transportation bill build in the legislative 
relief necessary to do P3 projects. I mean, the problem we 
had--we just did, as Congresswoman Richardson knows, the new 
courthouse in Long Beach where we came together, county/State. 
But we did not have legislative relief, and it took forever. So 
if the legislative relief to encourage, incentivize P3 projects 
could be in this transportation act, that is one major step 
forward that you do not have to go back and fix the problem and 
create and go back through another legislative process to pull 
it off.
    Ms. Harman. I am sure you agree, Mr. Czyzyk, that local 
businesses, local banks might find a huge opportunity to earn 
an appropriate return helping put Los Angeles construction 
workers and U.S. construction workers back to work.
    Mr. Czyzyk. The business community has always been willing, 
for years, to enter into these public/private partnerships. 
There have been some reluctancies on the side of government and 
sometimes the arrangements have not been as good as they 
perhaps could have been. But there are existing public/private 
partnerships that exist today in other names. For example, most 
airports around the United States are built--the terminals are 
built with airline dollars, and it is quite simply where an 
opportunity is given to an airline or to another business to 
develop a facility, given 30 years to do that, and then the 
facility is turned over lock, stock, and barrel to the 
government authority. That in itself is a form of public/
private partnership, and that could take place on our roads and 
highways as well.
    There was some contemplation a few years ago of building a 
separate lane on the 710 Freeway that could have been financed 
in a private/public partnership type of arrangement, although 
because of the inability to come to an understanding between 
the investors and the government agencies at the time, it did 
not happen.
    But with the willingness of all three elements to work 
together--and when I say the three elements, I am referring to 
government, labor, and business--these public/private 
partnerships can happen. I cannot speak for all the banks, but 
there is a few trillion dollars that is out there that can be 
invested. If there is a willingness on the part of the 
constituents to do it, I am sure that a lot of infrastructure 
improvement can be made in that regard.
    Ms. Harman. So just let me conclude, Chairman Boxer and 
Chairman Mica.
    I obviously leave Congress with this issue in good hands. 
We are going to extend the Green Line to LAX and we are going 
to leverage private money and we are going to do it right now 
on a bipartisan basis. I just want to thank all my colleagues 
for the honor of serving with them over the years.
    Mr. Mica. Well, thank you.
    [Applause.]
    Mr. Mica. Thank you again, Representative Harman.
    As we conclude here, I think everyone has had an 
opportunity for participation. As I said, we welcome from those 
who could not be on the formal panel with us to submit for the 
record their ideas, suggestions, recommendations through their 
Representative or Senator.
    I cannot again thank Senator Boxer enough for her 
hospitality in hosting us today and her leadership in the U.S. 
Senate on our first public effort here together, an example 
hopefully we are setting to draft and complete for the country 
probably one of the most important pieces of legislation that 
will affect our economy in the future. So thank you again.
    I opened and let me hand you the gavel, if you would have 
any comments. I will yield to you, and then if you could please 
close the joint hearing.
    Senator Boxer [presiding]. Well, this is a very important 
moment in time, given where we are in our country and all the 
problems we face and the rancor, that we are here together, Mr. 
Chairman, with colleagues from both sides of the aisle. It 
really is an important signal that we are sending, and I hope 
the people of Los Angeles feel very proud because what really 
brought us here is the just amazing leadership this community 
has shown on this critical issue. As I leave here, I think what 
we have gotten from this incredible panel--and I am sure, Mr. 
Chairman and members, you are getting ideas from all over the 
country, and I am very anxious to hear from you about all the 
different ideas that you have learned. But I feel that I have 
been given a very solid road map on how to proceed.
    I am going to keep in my mind a couple of things, the first 
one that I thought Jane Harman laid out so beautifully. We can 
leverage. At this tough time when we have very tough financial 
problems, we can leverage dollars from the private sector, from 
local government, from State government, from wherever it 
comes. We can do it at very little risk, at virtually no risk 
to the taxpayers. So leverage is to me the centerpiece of what 
we are going to do together.
    The second thing I will keep in my mind--and I hope 
everybody will--is those unemployed construction workers and 
also the businesses that they formerly worked for who have very 
little work right now. We have a housing crisis and it is not 
yet fixed. Let us put it that way. Some tough times still 
remain in that front. So what are we going to do with 
essentially 20 stadiums filled with unemployed construction 
workers? I thank Mr. Hunter for being here with the Chamber of 
Commerce, labor and commerce together.
    So I think if we keep in our minds the way to do this 
efficiently, the way to stretch our dollars, the way to be 
fiscally responsible and still meet our demands that we have on 
us for a top-notch transportation system and the unemployed 
workers and the construction businesses that need us to act, I 
think we are going to come out with something very, very good. 
Look, there will be some tough patches ahead, and we are not 
going to agree on every single thing. We know that. But I think 
on the big issues, we do agree and we do see eye to eye.
    So with that optimism, I close this hearing and I thank 
everyone for attending and I thank our excellent panel.
    [Applause.]
    [Whereupon, at 11 a.m., the hearing was adjourned.]
    [Additional statements submitted for the record follow:]

    [GRAPHIC] [TIFF OMITTED] T5228.063
    
    [GRAPHIC] [TIFF OMITTED] T5228.064
    
    [GRAPHIC] [TIFF OMITTED] T5228.065
    
    [GRAPHIC] [TIFF OMITTED] T5228.066
    
    [GRAPHIC] [TIFF OMITTED] T5228.067
    
    [GRAPHIC] [TIFF OMITTED] T5228.068
    
    [GRAPHIC] [TIFF OMITTED] T5228.069
    
    [GRAPHIC] [TIFF OMITTED] T5228.070
    
    [GRAPHIC] [TIFF OMITTED] T5228.071
    
    [GRAPHIC] [TIFF OMITTED] T5228.072
    
    [GRAPHIC] [TIFF OMITTED] T5228.073
    
    [GRAPHIC] [TIFF OMITTED] T5228.074
    
    [GRAPHIC] [TIFF OMITTED] T5228.075
    
    [GRAPHIC] [TIFF OMITTED] T5228.076
    
    [GRAPHIC] [TIFF OMITTED] T5228.077
    
    [GRAPHIC] [TIFF OMITTED] T5228.078
    
    [GRAPHIC] [TIFF OMITTED] T5228.079
    
    [GRAPHIC] [TIFF OMITTED] T5228.080
    
    [GRAPHIC] [TIFF OMITTED] T5228.081
    
    [GRAPHIC] [TIFF OMITTED] T5228.082
    
    [GRAPHIC] [TIFF OMITTED] T5228.083
    
    [GRAPHIC] [TIFF OMITTED] T5228.084
    
    [GRAPHIC] [TIFF OMITTED] T5228.085
    
    [GRAPHIC] [TIFF OMITTED] T5228.086
    
    [GRAPHIC] [TIFF OMITTED] T5228.087
    
    [GRAPHIC] [TIFF OMITTED] T5228.088
    
    [GRAPHIC] [TIFF OMITTED] T5228.089
    
    [GRAPHIC] [TIFF OMITTED] T5228.090
    
    [GRAPHIC] [TIFF OMITTED] T5228.091
    
    [GRAPHIC] [TIFF OMITTED] T5228.092
    
    [GRAPHIC] [TIFF OMITTED] T5228.093
    
    [GRAPHIC] [TIFF OMITTED] T5228.094
    
    [GRAPHIC] [TIFF OMITTED] T5228.095
    
    [GRAPHIC] [TIFF OMITTED] T5228.096
    
    [GRAPHIC] [TIFF OMITTED] T5228.097
    
    [GRAPHIC] [TIFF OMITTED] T5228.098
    
    [GRAPHIC] [TIFF OMITTED] T5228.099
    
    [GRAPHIC] [TIFF OMITTED] T5228.100
    
    [GRAPHIC] [TIFF OMITTED] T5228.101
    
    [GRAPHIC] [TIFF OMITTED] T5228.102
    
    [GRAPHIC] [TIFF OMITTED] T5228.103
    
    [GRAPHIC] [TIFF OMITTED] T5228.104
    
    [GRAPHIC] [TIFF OMITTED] T5228.105
    
    [GRAPHIC] [TIFF OMITTED] T5228.106
    
    [GRAPHIC] [TIFF OMITTED] T5228.107
    
    [GRAPHIC] [TIFF OMITTED] T5228.108
    
    [GRAPHIC] [TIFF OMITTED] T5228.109
    
    [GRAPHIC] [TIFF OMITTED] T5228.110
    
    [GRAPHIC] [TIFF OMITTED] T5228.111
    
    [GRAPHIC] [TIFF OMITTED] T5228.112
    
    [GRAPHIC] [TIFF OMITTED] T5228.113
    
    [GRAPHIC] [TIFF OMITTED] T5228.114
    
    [GRAPHIC] [TIFF OMITTED] T5228.116
    
    [GRAPHIC] [TIFF OMITTED] T5228.117
    
    [GRAPHIC] [TIFF OMITTED] T5228.118
    
    [GRAPHIC] [TIFF OMITTED] T5228.119
    
    [GRAPHIC] [TIFF OMITTED] T5228.120
    
    [GRAPHIC] [TIFF OMITTED] T5228.121
    
    [GRAPHIC] [TIFF OMITTED] T5228.122
    
    [GRAPHIC] [TIFF OMITTED] T5228.123
    
    [GRAPHIC] [TIFF OMITTED] T5228.124
    
    [GRAPHIC] [TIFF OMITTED] T5228.125
    
    [GRAPHIC] [TIFF OMITTED] T5228.126
    
    [GRAPHIC] [TIFF OMITTED] T5228.127
    
    [GRAPHIC] [TIFF OMITTED] T5228.128
    
    [GRAPHIC] [TIFF OMITTED] T5228.129
    
    [GRAPHIC] [TIFF OMITTED] T5228.130
    
    [GRAPHIC] [TIFF OMITTED] T5228.131
    
    [GRAPHIC] [TIFF OMITTED] T5228.132
    
    [GRAPHIC] [TIFF OMITTED] T5228.133
    
    [GRAPHIC] [TIFF OMITTED] T5228.134
    
    [GRAPHIC] [TIFF OMITTED] T5228.135
    
    [GRAPHIC] [TIFF OMITTED] T5228.136
    
    [GRAPHIC] [TIFF OMITTED] T5228.137
    
    [GRAPHIC] [TIFF OMITTED] T5228.138
    
    [GRAPHIC] [TIFF OMITTED] T5228.139
    
    [GRAPHIC] [TIFF OMITTED] T5228.140
    
    [GRAPHIC] [TIFF OMITTED] T5228.141
    
    [GRAPHIC] [TIFF OMITTED] T5228.142
    
    [GRAPHIC] [TIFF OMITTED] T5228.143
    
    [GRAPHIC] [TIFF OMITTED] T5228.144
    
    [GRAPHIC] [TIFF OMITTED] T5228.145
    
    [GRAPHIC] [TIFF OMITTED] T5228.146
    
    [GRAPHIC] [TIFF OMITTED] T5228.147
    
    [GRAPHIC] [TIFF OMITTED] T5228.148
    
    [GRAPHIC] [TIFF OMITTED] T5228.149
    
    [GRAPHIC] [TIFF OMITTED] T5228.150
    
    [GRAPHIC] [TIFF OMITTED] T5228.151
    
    [GRAPHIC] [TIFF OMITTED] T5228.152
    
    [GRAPHIC] [TIFF OMITTED] T5228.153
    
    [GRAPHIC] [TIFF OMITTED] T5228.154
    
    [GRAPHIC] [TIFF OMITTED] T5228.155
    
    [GRAPHIC] [TIFF OMITTED] T5228.156
    
    [GRAPHIC] [TIFF OMITTED] T5228.157
    
    [GRAPHIC] [TIFF OMITTED] T5228.158
    
    [GRAPHIC] [TIFF OMITTED] T5228.115
    
    [GRAPHIC] [TIFF OMITTED] T5228.159
    
    [GRAPHIC] [TIFF OMITTED] T5228.160
    
    [GRAPHIC] [TIFF OMITTED] T5228.161
    
    [GRAPHIC] [TIFF OMITTED] T5228.162
    
    [GRAPHIC] [TIFF OMITTED] T5228.163
    
    [GRAPHIC] [TIFF OMITTED] T5228.164
    
    [GRAPHIC] [TIFF OMITTED] T5228.165
    
    [GRAPHIC] [TIFF OMITTED] T5228.166
    
    [GRAPHIC] [TIFF OMITTED] T5228.167
    
    [GRAPHIC] [TIFF OMITTED] T5228.168
    
    [GRAPHIC] [TIFF OMITTED] T5228.169
    
    [GRAPHIC] [TIFF OMITTED] T5228.170
    
    [GRAPHIC] [TIFF OMITTED] T5228.171
    
    [GRAPHIC] [TIFF OMITTED] T5228.172
    
    [GRAPHIC] [TIFF OMITTED] T5228.173
    
    [GRAPHIC] [TIFF OMITTED] T5228.174
    
    [GRAPHIC] [TIFF OMITTED] T5228.175
    
    [GRAPHIC] [TIFF OMITTED] T5228.176
    
    [GRAPHIC] [TIFF OMITTED] T5228.177
    
    [GRAPHIC] [TIFF OMITTED] T5228.178
    
    [GRAPHIC] [TIFF OMITTED] T5228.179
    
    [GRAPHIC] [TIFF OMITTED] T5228.180
    
    [GRAPHIC] [TIFF OMITTED] T5228.181
    
    [GRAPHIC] [TIFF OMITTED] T5228.182
    
    [GRAPHIC] [TIFF OMITTED] T5228.183
    
    [GRAPHIC] [TIFF OMITTED] T5228.184
    
    [GRAPHIC] [TIFF OMITTED] T5228.185
    
    [GRAPHIC] [TIFF OMITTED] T5228.186
    
    [GRAPHIC] [TIFF OMITTED] T5228.187
    
    [GRAPHIC] [TIFF OMITTED] T5228.188
    
    [GRAPHIC] [TIFF OMITTED] T5228.189
    
    [GRAPHIC] [TIFF OMITTED] T5228.190
    
    [GRAPHIC] [TIFF OMITTED] T5228.191
    
    [GRAPHIC] [TIFF OMITTED] T5228.192
    
    [GRAPHIC] [TIFF OMITTED] T5228.193
    
    [GRAPHIC] [TIFF OMITTED] T5228.194
    
    [GRAPHIC] [TIFF OMITTED] T5228.195
    
    [GRAPHIC] [TIFF OMITTED] T5228.196
    
    [GRAPHIC] [TIFF OMITTED] T5228.197
    
    [GRAPHIC] [TIFF OMITTED] T5228.198
    
    [GRAPHIC] [TIFF OMITTED] T5228.199
    
    [GRAPHIC] [TIFF OMITTED] T5228.200
    
    [GRAPHIC] [TIFF OMITTED] T5228.201
    
    [GRAPHIC] [TIFF OMITTED] T5228.202
    
    [GRAPHIC] [TIFF OMITTED] T5228.203
    
    [GRAPHIC] [TIFF OMITTED] T5228.204
    
    [GRAPHIC] [TIFF OMITTED] T5228.205
    
    [GRAPHIC] [TIFF OMITTED] T5228.206
    
    [GRAPHIC] [TIFF OMITTED] T5228.207
    
    [GRAPHIC] [TIFF OMITTED] T5228.208
    
    [GRAPHIC] [TIFF OMITTED] T5228.209
    
    [GRAPHIC] [TIFF OMITTED] T5228.210
    
    [GRAPHIC] [TIFF OMITTED] T5228.211
    
    [GRAPHIC] [TIFF OMITTED] T5228.212
    
    [GRAPHIC] [TIFF OMITTED] T5228.213
    
    [GRAPHIC] [TIFF OMITTED] T5228.214
    
    [GRAPHIC] [TIFF OMITTED] T5228.215
    
    [GRAPHIC] [TIFF OMITTED] T5228.216
    
    [GRAPHIC] [TIFF OMITTED] T5228.217
    
    [GRAPHIC] [TIFF OMITTED] T5228.218
    
    [GRAPHIC] [TIFF OMITTED] T5228.219
    
    [GRAPHIC] [TIFF OMITTED] T5228.220
    
    [GRAPHIC] [TIFF OMITTED] T5228.221
    
    [GRAPHIC] [TIFF OMITTED] T5228.222
    
    [GRAPHIC] [TIFF OMITTED] T5228.223
    
    [GRAPHIC] [TIFF OMITTED] T5228.224
    
    [GRAPHIC] [TIFF OMITTED] T5228.225
    
    [GRAPHIC] [TIFF OMITTED] T5228.226
    
    [GRAPHIC] [TIFF OMITTED] T5228.227
    
    [GRAPHIC] [TIFF OMITTED] T5228.228
    
    [GRAPHIC] [TIFF OMITTED] T5228.229
    
    [GRAPHIC] [TIFF OMITTED] T5228.230
    
    [GRAPHIC] [TIFF OMITTED] T5228.231
    
    [GRAPHIC] [TIFF OMITTED] T5228.232
    
    [GRAPHIC] [TIFF OMITTED] T5228.233
    
    [GRAPHIC] [TIFF OMITTED] T5228.234
    
    [GRAPHIC] [TIFF OMITTED] T5228.235
    
    [GRAPHIC] [TIFF OMITTED] T5228.236
    
    [GRAPHIC] [TIFF OMITTED] T5228.237
    
    [GRAPHIC] [TIFF OMITTED] T5228.238
    
    [GRAPHIC] [TIFF OMITTED] T5228.239
    
    [GRAPHIC] [TIFF OMITTED] T5228.240
    
    [GRAPHIC] [TIFF OMITTED] T5228.241
    
    [GRAPHIC] [TIFF OMITTED] T5228.242
    
    [GRAPHIC] [TIFF OMITTED] T5228.243
    
    [GRAPHIC] [TIFF OMITTED] T5228.244
    
    [GRAPHIC] [TIFF OMITTED] T5228.245
    
    [GRAPHIC] [TIFF OMITTED] T5228.246
    
    [GRAPHIC] [TIFF OMITTED] T5228.247
    
    [GRAPHIC] [TIFF OMITTED] T5228.248
    
    [GRAPHIC] [TIFF OMITTED] T5228.249
    
    [GRAPHIC] [TIFF OMITTED] T5228.250
    
    [GRAPHIC] [TIFF OMITTED] T5228.251
    
    [GRAPHIC] [TIFF OMITTED] T5228.252
    
    [GRAPHIC] [TIFF OMITTED] T5228.253
    
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
